   September 28, 2006




Information Technology
Management
Report on Defense Civilian Pay
System Controls Placed in Operation
and Tests of Operating Effectiveness
for the Period July 1, 2005, through
June 30, 2006
(D-2006-120)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
Additional Information and Copies

The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. If you have questions or
would like to obtain additional copies of the draft report, contact Mr. Michael
Perkins at (703) 325-3557 (DSN 221-3557) or Mr. Sean Keaney at (703) 428-1448
(DSN 328-1448).

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
Table of Contents
Foreword                                                                  i

Section I
      Independent Service Auditor’s Report                                1

Section II
      Description of DCPS Operations and Controls Provided by DFAS and
         DISA                                                            11

Section III
      Control Objectives, Control Activities, and Tests of Operating
         Effectiveness                                                   23

Section IV
      Supplemental Information Provided by DFAS and DISA                 89

Acronyms and Abbreviations                                               93

Report Distribution                                                      94
                                   FOREWORD
This report is intended for the use of Defense Finance and Accounting Service (DFAS)
and Defense Information Systems Agency (DISA) management, its user organizations,
and the independent auditors of its user organizations. Department of Defense (DoD)
personnel who manage and use the Defense Civilian Pay System (DCPS) will also find
this report of interest as it contains information about DCPS general and application
controls.

DCPS is a pay processing system used to pay DoD civilian employees, as well as
employees at several other Federal entities, including the Departments of Energy, Health
and Human Services, the Environmental Protection Agency, and the Executive Office of
the President. In 2005, DCPS processed approximately $42.3 billion in pay transactions
and paid approximately 789,000 employees on a biweekly basis.

The DoD Office of Inspector General is implementing a long-range strategy to conduct
audits of DoD financial statements. The Chief Financial Officers Act of 1990 (Public
Law 101-576), as amended, mandates agencies prepare and conduct audits of financial
statements. The reliability of information in DCPS directly impacts the Defense
Department’s ability to provide reliable, and ultimately auditable, financial statements,
which is key to achieving the goals of the Chief Financial Officers Act.

This audit assessed DCPS application and general computer controls and related
processing. DFAS and DISA are responsible for managing and maintaining DCPS
application and general computer controls. This report provides an opinion on the
fairness of presentation, the adequacy of design, and the operating effectiveness of key
application and general computer controls that are relevant to audits of user organization
financial statements. As a result, this audit precludes the need for multiple audits of
DCPS controls previously performed by user organizations to plan or conduct financial
statement and performance audits. This audit will also provide, in a separate audit report,
recommendations to management for correction of identified control deficiencies.
Effective internal control is critical to achieving reliable information for all management
reporting and decision-making purposes.




                                             i
Section I: Independent Service Auditor’s Report




                       1
Section II: Description of DCPS Operations and Controls
              Provided by DFAS and DISA




                          11
A. Overview of DCPS
Purpose of DCPS

In 1991, DoD selected DCPS as its standard payroll system. DCPS is used by all DoD
activities paying civilian employees, except Local Nationals and those funded by Non-
appropriated Funds and Civilian Mariners. Before becoming the DoD-wide civilian pay
system, DCPS was the Navy civilian pay system, which had been in operation since
1988. DCPS began paying the EOP in 1998. The President’s Management Agenda e-
Payroll initiative requires DFAS, as one of four federal payroll providers, to service the
entire executive branch of the Federal government. DFAS began processing payroll for
the Department of Energy in 2003, the Department of Health and Human Services in
2005, and the EPA in 2006. As of June 30, 2006, DCPS currently processes pay for
approximately 789,000 employees.

The DCPS program mission is to process payroll for DoD civilian employees in
accordance with existing regulatory, statutory, and financial information requirements
relating to civilian pay entitlements and applicable policies and procedures. The DoD
civilian pay program must satisfy the complex and extensive functional, technical, and
interface requirements associated with the DoD civilian pay function. The functional
areas include: employee data maintenance; time and attendance; leave; pay processing;
deductions; retirement processing; debt collection; special actions; disbursing and
collection; reports processing and reconciliation; and record maintenance and retention.
DCPS provides standard interface support to various accounting, financial management,
and personnel systems. From a life cycle perspective, DCPS is in the maintenance phase,
with system changes mainly resulting from legislative and functional requirements.

Approximately 2,900 payroll processing personnel at three DFAS payroll offices located
in Pensacola, Florida; Charleston, South Carolina; and Denver, Colorado use DCPS.
DCPS is also used at NSA. 1 Additional users include Customer Service Representatives
at customer activities and sites. The three DFAS payroll offices process payroll for all
DoD civilians. The Pensacola payroll office processes EOP payroll; the Charleston
payroll office processes Departments of Energy and Health and Human Services payroll;
and the Denver payroll office processes EPA payroll.

DCPS Support Functions

The DFAS Standards and Compliance Division (under the cognizance of the DFAS
Director) provides high-level management control and coordination within DoD and for
DCPS external customers. The Civilian Pay Services Product Line and the System
Management Office (under the cognizance of the DFAS Chief Information Officer) have
overall daily responsibility for application, operation, interpretation, and implementation
of DCPS. In addition, those offices are responsible for coordinating with external users
and new customers. The Civilian Pay Services Product Line and the System
Management Office (SMO) are responsible for requirements management, functional
analysis, information assurance, and user documentation processes. TSOPE provides
DCPS software engineering, production support, and customer service. Within TSOPE,
several groups provide DCPS support. The Software Engineering Division provides

1The NSA payroll office is not included in the scope of this “Description of DCPS Operations and Controls
Provided by DFAS and DISA.”

                                                   13
technical design, programming, unit testing, and system documentation. The Software
Test and Evaluation Division perform integration testing and evaluation processes. The
Project Support Division provides system software, telecommunication, computer
resource tools, and database support. The DCPS Software Quality Assurance Office
monitors the software engineering process and provides recommendations for
improvement. The Systems Support Division provides configuration management,
release management, implementation status, and customer support. DCPS is maintained
and executed on a DISA mainframe platform at DECC SMC Mechanicsburg,
Pennsylvania.

DCPS Systems Architecture

DCPS has a two-tiered architecture comprised of the following:

       •   Mainframe hardware and software components - used as a repository for
           collecting and accumulating data, and providing centralized, biweekly
           processing of civilian pay and its attendant functions (for example, electronic
           funds transfer or generating Leave and Earnings Statements).

       •   Remote user/print spooler hardware and software - used to collect and/or
           pre-process data at customer sites, provide connectivity to DCPS mainframe
           components, and support printing of mainframe-generated outputs (for
           example, reports and timesheets) at customer locations. The components are
           largely customer-owned and operated, and include local area networks,
           personal computers, and a diverse assortment of printers and software that
           operates and connects the networks, computers, and printers. DFAS
           maintains a limited number of mid-tier (minicomputer) systems at selected
           DFAS sites to handle specialized printing requirements (for example,
           paychecks). Other offloaded print services, such as bulk printing for DCPS
           payroll offices and printing of Leave and Earnings Statements, are performed
           on personal computers or workstations maintained by the Defense Automated
           Printing Service at sites located in various U.S. and overseas geographical
           regions.

The two tiers of the DCPS architecture are connected by DoD-maintained networks
composed of Internet Protocol-based (for example, the Non-Classified Internet Protocol
Router Network) and Systems Network Architecture-based (leased line) services. Those
networks connect DCPS to a wide variety of external, non-DCPS sites (mainframes, mid-
tiers, and personal computers) that supply or exchange data with DCPS, mainly through
electronic file transfers, on a regular basis. Examples of external interface sites include
the Defense Civilian Personnel Data System, Federal Reserve Board, Thrift Savings Plan
(TSP), Department of the Treasury, and non-DoD users such as the Departments of
Energy and Health and Human Services, EOP, and EPA.

The main technical components of DCPS include the following attributes.

       •   DCPS is housed in a separate logical domain on an IBM Z900 mainframe
           computer located at DECC SMC Mechanicsburg.

       •   The IBM mainframe operating system software is Z/OS release 1.4.

       •   DCPS is written in Common Business Oriented II language (COBOL).


                                            14
       •   First point of entry security protection mechanisms are provided by Access
           Control Facility 2 (ACF2).

       •   DECC SMC Mechanicsburg provides four web servers that service all
           applications that support DCPS. Those servers accept the users’ secure web
           requests by supplying a menu screen with options for each application to the
           DCPS logon screen, where individuals enter their ACF2 login user
           identification and passwords.

       •   Third-party software packages are used for DCPS process scheduling and
           monitoring.

The payroll offices and associated Customer Service Representatives have access to
DCPS through dedicated leased lines, various DoD networks, and through Secure Web
Access. Secure Web Access enables secure transaction processing across the
Non-Classified Internet Protocol Router Network. DISA is in the process of transitioning
Secure Web Access to the Mainframe Internet Access Portal, which is centrally managed
by the Communications Control Center, Montgomery, Alabama. IBM’s Host-on-
Demand was used to establish the Secure Web Access infrastructure. DCPS users
interact directly with the DCPS application through “3270” emulation using Personal
Computer/Advanced Technology keyboard mapping terminals or terminal simulation
programs for communication with DCPS. This permits application-defined formatted
screens to be displayed with protected static text and unprotected fields for data entry.
The payroll offices are structured in accordance with DFAS standard staffing policy and
conduct business using standard operating and support procedures. They operate on a
24-hour basis to provide payroll service to customers located in various time zones and
are responsible for the full range of pay processing functions and services. As
circumstances dictate, the three payroll offices serve as operational back-up sites for each
other when contingency procedures are executed by DFAS.

DoD Instruction 8500.2, “Information Assurance Implementation,” February 6, 2003,
identifies specific control requirements DoD systems should achieve based on their
designated Mission Assurance Category (MAC). The DCPS application Authority to
Operate, dated July 29, 2005, is on file with the DFAS Chief Information Officer.
According to the current DCPS System Security Authorization Agreement (SSAA), as of
June 30, 2005, the MAC level for the DCPS application is “MAC III” and its supporting
enclave at DECC SMC Mechanicsburg is “MAC II.”

DCPS Data Flow

The following figure depicts the flow of data to and from DCPS as of April 2005. DCPS
customers and technicians input data, including master employee and time and attendance
logs. DCPS outputs data to multiple systems and entities, including financial reporting
entities, the automated disbursing system, and data storage.




                                            15
Overview of System Interfaces

DCPS is a combination of online and batch programs that support the requirements of a
biweekly payroll process for approximately 789,000 civilian employees in the Federal
government based on data feeds from numerous personnel, accounting, and time and
attendance systems. Transactions to update employee data, adjust leave balances and
payments, and report time and attendance may be input daily to spread the online
workload and to obtain labor data. However, the focal point of the system is the
biweekly process. Non-biweekly process functions occur monthly, quarterly, annually,
or as required, and are in support of, or a result of, multiple biweekly pay cycles. DCPS
supports a standard personnel interface, decentralized time and attendance reporting, and
the Customer Service Representatives structure.




                                           16
DCPS accepts input from three primary areas: Customer Service Representatives,
timekeepers, and personnel offices. DCPS receives or creates data for approximately
109 interface systems that, among other functions:

       •   update personnel information,
       •   upload time and attendance data,
       •   download information for checks to be printed,
       •   report accounting information to the Department of the Treasury,
       •   reconcile enrollment information with health care providers, and
       •   download general accounting information to DoD agencies.

Automatic electronic file transfer directly to and from the host mainframe computer is
preferred for input and output file interfaces. Output files are automatically transmitted
to sites and activities using common file transfer protocols, through communication lines
of files written to magnetic tape at the host (per data in File Transfer Tables). Interface
partners must provide File Transfer Table data to the TSOPE for table updates. For files
not automatically transferred, the activity receiving DCPS data is responsible for
accessing the host computer to retrieve (“pull”) the output file(s) from the host. In
addition, the activity creating payroll data is responsible for developing and sending a
DCPS input file by secure means to the processing center supporting the payroll office.
The payroll activities and the submitting activities establish mutually agreeable schedules
to ensure timely receipt of data necessary to support DCPS payroll processing. TSOPE is
responsible for executing and monitoring interface processing, as well as resolving
interface processing errors or problems.

B. Control Environment
DCPS Management Oversight

The DFAS Information and Technology Directorate is responsible for reviewing and
approving DCPS security policy and its certification and accreditation plan, and granting
DCPS authority to operate. TSOPE provides not only DCPS software engineering
support, but also production support and customer service. DCPS is maintained and
executed on a DISA mainframe platform at DECC SMC Mechanicsburg, Pennsylvania.
DECC SMC Mechanicsburg is part of the Center for Computing Services within the
Global Information Grid Combat Support Directorate, which is a Strategic Business Unit
within DISA. DFAS and DISA have documented DCPS support services provided by
DISA in a Service-Level agreement that is reviewed by both agencies on an annual basis.
DFAS and DISA have documented policies and procedures describing their respective
roles and responsibilities in supporting payroll functions. DISA and DFAS are Defense
agencies that report to the Office of the Secretary of Defense.

Personnel Policies and Procedures

DFAS Payroll Offices and TSOPE

Payroll office employees and contractors are required to review applicable administrative
orders, policies, and procedures with the Human Resource Office and must complete
appropriate forms to gain access to DFAS systems. New employees must meet with the
Information Security Manager prior to gaining access to DCPS. The Information

                                            17
Security Manager is responsible for: (1) providing basic system security awareness
training, (2) securing civilians’ and contractors’ signatures on an Automated Data
Processing Security Awareness disclosure form, (3) identifying who an employees’
Terminal Area Security Officer is and what the Terminal Area Security Officer’s
responsibilities are, and (4) notifying appropriate personnel when personnel actions
occur. Those actions include providing access to or immediately terminating employee
or contractor access to DFAS automated information system resources. The payroll
offices and TSOPE facilities do not require any specific level of prior security clearance
before a candidate can become an employee.

DECC SMC Mechanicsburg

The security manager is responsible for processing and vetting new employees and
contractors who are given access to DECC SMC Mechanicsburg facilities. All
contractors and employees are required, at a minimum, to have a secret clearance and a
positive National Agency Check. For employees, the security manager coordinates with
the personnel office and for contractors, the security manager coordinates with the
contracting officer. The contracting officer is responsible for confirming that all
contractors are assigned to a valid contract, and have been approved to work at DECC
SMC Mechanicsburg.

All new employees are required to sign DISA Form 312, “Classified Information
Nondisclosure Agreement,” which serves as a nondisclosure agreement for sensitive and
classified information. When employees are terminated, DISA requires them to sign the
same Form 312 to confirm their understanding of the requirements placed upon them.
New employees and contractors are required to complete a SAAR form to gain access to
DISA systems. The security manager is responsible for vetting those forms and
confirming that the person requesting access has the proper clearance for the level of
access requested. For contractors, the security manager confirms the length of the
contract and determines when system accounts should expire. All new employees and
contractors must complete security awareness training.

C. Monitoring
Management and supervisory personnel at DFAS and DISA monitor the performance
quality and internal control environment as a normal part of their activities. DFAS and
DISA have implemented a number of management, financial, and operational reports that
help monitor the performance of payroll processing, as well as the DCPS system. Those
reports are reviewed each pay period and action is taken as necessary. All procedural
problems and exceptions to normal and scheduled processing are logged, reported, and
resolved in a timely manner. DCPS technicians perform remedial action, such as
additions, deletions, or changes to customer data, as necessary. In addition, several
organizations within DoD perform monitoring activities associated with DCPS-related
internal controls.

DISA OIG

The DISA OIG is an independent office within DISA that conducts internal audits,
inspections, and investigations. DISA-related components that support DCPS are part of
the DISA OIG audit universe and are subject to audits, inspections, and investigations
conducted by this office.


                                            18
FSO

The FSO conducts periodic System Readiness Reviews of DISA systems to determine
whether those systems are in compliance with documented Standard Technical
Implementation Guides (STIGs). The DCPS system components maintained by DISA
are subject to FSO reviews. The FSO is independent of the DECC SMC Mechanicsburg
management and does not maintain or configure DCPS.

DoD OIG

Congress established the DoD OIG under the Inspector General Act of 1978 to conduct
and supervise audits and investigations related to DoD programs and operations. The
DoD OIG reports directly to the Secretary of Defense and is independent of DFAS and
DISA. DCPS is part of the DoD OIG audit universe and is subject to financial,
operational, and information technology audits, reviews, and special assessment projects.

Certification and Accreditation

DoD Instruction 5200.40, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997, establishes a
standard Department-wide process, set of activities, general tasks, and management
structure to certify and accredit information systems that will maintain the information
assurance and security posture of the defense information infrastructure throughout the
life cycle of each system. The certification process is a comprehensive evaluation of the
technical and nontechnical security features of an information system and other
safeguards to establish the extent to which a particular design and implementation meets
specified security requirements and covers physical, personnel, administrative,
information, information systems, and communications security. The accreditation
process is a formal declaration by the designated approving authority that an information
system is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk.

DCPS is subject to the requirements of DITSCAP and must meet all DITSCAP
certification and accreditation requirements throughout its lifecycle. As part of the DCPS
DITSCAP process, DFAS and DISA have developed separate SSAAs for the DCPS
application and for the system enclave within DISA that supports the application. Each
SSAA is a living document that represents an agreement between the designated
approving authority, certifying authority, user representative, and program manager.
Among other items, the DCPS SSAA documents DCPS’ mission description and system
identification, environment description, system architecture description, system class,
system security requirements, organizations and resources, and DITSCAP plan. On a
periodic basis, the system security officer must verify and validate DCPS’ compliance
with the information in the SSAA by conducting vulnerability evaluations, security
testing and evaluation, penetration testing, and risk management reviews. The DCPS
application SSAA was signed on July 15, 2005, and is valid for three years. The DECC
SMC Mechanicsburg enclave SSAA was signed on October 26, 2005, and is valid for
three years. The DCPS application Authority to Operate, July 29, 2005, is on file with
the CDB3 Information Assurance Manager. The DCPS Authority to Operate will be
included in the annual SMC Mechanicsburg Unclassified Enclave SSAA package update
that is submitted to the DISA Designated Approval Authority.




                                           19
D. Risk Assessment
The DITSCAP process, discussed in subsection C above, includes several activities that
enable DFAS and DISA to assess risks associated with DCPS. The DCPS application
and enclave SSAAs document threats to DCPS and its supporting technical environment.
The SSAAs also contain residual risk assessments that document vulnerabilities noted
during DCPS tests and analyses. The information contained in the SSAAs is updated on
a yearly basis. Personnel from DFAS TSOPE and DECC SMC Mechanicsburg
participate in risk assessment activities.

E. Information and Communication
DCPS is the information system used to process civilian payroll for DoD and payroll
customers from other Federal entities including the Departments of Energy and Health
and Human Services, EOP, and EPA. Payroll processing includes data from
approximately 109 interface systems. Those interfaces are linked to other DoD financial
systems, as well as external systems. The majority of the interfaces is automated and
must conform to documented interface specifications developed by the TSOPE. The
TSOPE is responsible for executing and monitoring all DCPS automated interfaces.

The support relationship between DFAS and DECC SMC Mechanicsburg is documented
through a Service-Level agreement that includes various DFAS and DECC SMC
Mechanicsburg points of contact and liaisons that should be used when DCPS issues
arise. DECC SMC Mechanicsburg has assigned a customer relationship manager to work
with TSOPE to resolve any DCPS processing problems or concerns.

Directors and managers from TSOPE and the payroll offices meet weekly to discuss
DCPS processing issues. The Configuration Control Board (CCB), comprised of TSOPE
and payroll office personnel, review and approve functional and systemic changes to
DCPS. The payroll offices have help desk functions to identify and track DCPS user
issues and problems and communicate those issues and problems to TSOPE for
resolution.

F. Control Activities
The DCPS control objectives and related control activities are included in Section III of
this report, “Information Provided by the Service Auditor,” to eliminate the redundancy
that would result from listing them in this section and repeating them in Section III.
Although the control objectives and related controls are included in Section III, they are
nevertheless an integral part of the description of controls.

G. User Organization Control Considerations
DFAS and DISA control activities related to DCPS were designed with the assumption
that certain controls would be placed in operation at user organizations. This section
describes some of the controls that should be in operation at user organizations to
complement the controls at DFAS and DISA.




                                            20
User organizations should have policies and procedures in place to ensure the following
events occur.

       •   The Information Systems Security Officer located at the payroll offices is
           notified of all terminated employees with access to DCPS.

       •   The local Human Resource Office is notified of all terminated employees to
           ensure that those employees are removed from the Master Employee Record
           in a timely manner.

       •   All time entered by timekeepers is approved and authorized by appropriate
           user organization management.

       •   All Master Employee Records created represent valid employees.

       •   All changes to the Master Employee Record are approved by appropriate user
           organization personnel prior to payroll processing.

       •   Segregation of duties exists between those at the user organization who enter
           time and those who enter or change Master Employee Records.

       •   All pseudo Social Security Numbers (if created) have been authorized by
           appropriate user organization personnel and, if necessary, are accurately tied
           to a primary and valid Social Security Number.

       •   User organization managers review the “Control of Hours” and other
           payroll-related reports for appropriateness and accuracy.

       •   All invalid time entry interface feeds are reviewed and processed by
           appropriate user organization personnel in a controlled manner.

       •   All invalid personnel record interface feeds are resolved in the interface
           system by user organization personnel with appropriate approval by user
           organization management.




                                            21
Section III: Control Objectives, Control Activities, and Tests
                 of Operating Effectiveness




                              23
A. Scope Limitations
The control objectives documented in this section were specified by the DoD OIG. As
described in the prior section (Section II), DCPS interfaces with many systems. The
controls described and tested within this section of the report are limited to those
computer systems, operations, and processes directly related to DCPS itself. We did not
perform any procedures to evaluate the integrity and accuracy of the data contained in
DCPS. The controls related to the source and destination systems associated with the
DCPS interfaces are specifically excluded from this review. In addition, we did not
perform procedures to evaluate the effectiveness of input, processing, and output controls
within those interface systems.




                                           25
B. Control Objectives, Control Activities, and Tests of Operating Effectiveness

Application Control Objectives, Control Activities, Tests Performed, and Results of Testing


No.       Control Objective               Control Activities                        Tests Performed                           Results of Testing


1         Controls provide reasonable     Policies and procedures are               Read policies and procedures and          No relevant exceptions noted.
          assurance that only valid and   documented to describe how only           inquired with appropriate personnel to
          accurate changes are made to    valid and accurate changes are made       confirm that only valid changes are
          the payroll master files and    to the payroll master files and payroll   made to the payroll master files and
          payroll withholding tables.     withholding tables.                       payroll withholding tables.

                                          Payroll master file and withholding       Inquired with appropriate personnel       No relevant exceptions noted.
                                          data tables are periodically reviewed     and inspected online queries (OLQs)
                                          by supervisory personnel for accuracy     and summary reports to confirm that
                                          and ongoing pertinence.                   master files and withholding tables
                                                                                    were periodically reviewed by
                                                                                    supervisory personnel for accuracy
                                                                                    and ongoing pertinence.

                                          Programmed validation and edit            Inquired with appropriate personnel       No relevant exceptions noted.
                                          checks identify erroneous data.           and observed programmed validation
                                                                                    and edit checks to confirm they
                                                                                    existed.

                                          The ability to view, modify, or           Inquired with appropriate personnel       DFAS Denver
                                          transfer information contained in the     and inspected a random sample of
                                          payroll master files is restricted to     45 access forms to confirm that the       Payroll Office Users
                                          authorized personnel.                     master file is restricted to authorized   Of the 12 SAAR forms selected for
                                                                                    personnel.                                review, 1 form could not be located.
                                                                                                                              Non-Payroll Office Users
                                                                                                                              Of the 15 SAAR forms inspected, 1
                                                                                                                              form did not include the completion
                                                                                                                              date of the initial computer-based
                                                                                                                              security training. In addition, 1 of
                                                                                                                              the 15 SAAR forms inspected did
                                                                                                                              not include a supervisor’s signature.



                                                                           26
No.   Control Objective   Control Activities        Tests Performed   Results of Testing

                                                                      The ZPA database included
                                                                      42 users with supervisory-level
                                                                      access.
                                                                      DFAS Pensacola
                                                                      Payroll Office Users
                                                                      Of the nine SAAR forms selected
                                                                      for review, one form could not be
                                                                      located. Of the eight SAAR forms
                                                                      inspected, two forms did not
                                                                      include the completion date of the
                                                                      initial computer-based security
                                                                      training.
                                                                      Non-Payroll Office Users
                                                                      Of the 26 SAAR forms selected for
                                                                      review, 4 forms could not be
                                                                      located. Of the 22 SAAR forms
                                                                      inspected, 3 forms did not include
                                                                      the completion date of the initial
                                                                      computer-based security training.
                                                                      In addition, 2 of the 22 SAAR
                                                                      forms inspected did not include the
                                                                      supervisor’s signature.
                                                                      DFAS Charleston
                                                                      Payroll Office Users
                                                                      Of the 24 SAAR forms selected for
                                                                      review, 1 form could not be located.
                                                                      Of the 23 SAAR forms inspected, 1
                                                                      form did not match the level of
                                                                      authorized access actually granted.
                                                                      The Charleston payroll office had
                                                                      133 DCPS users with access to
                                                                      update time and attendance and
                                                                      Master Employee data.
                                                                      Non-Payroll Office Users
                                                                      No relevant exceptions noted.


                                               27
No.   Control Objective               Control Activities                       Tests Performed                           Results of Testing


                                      Changes to the payroll withholding       Inquired with appropriate personnel       No relevant exceptions noted.
                                      tables and master files are compared     and observed the process for making
                                      to authorized source documents by        tax changes to the payroll withholding
                                      supervisory personnel to ensure that     tables and master files after being
                                      they were input accurately.              compared to authorized source
                                                                               documents by supervisory personnel
                                                                               to ensure that they were tested and
                                                                               approved.
                                                                               Inquired with appropriate personnel
                                                                               and observed the imaging process to
                                                                               confirm that inputs are compared to
                                                                               authorized Imaging documents to
                                                                               ensure that they were input accurately.

2     Controls provide reasonable     Policies and procedures are              Inquired with appropriate personnel       No relevant exceptions noted.
      assurance that changes to the   documented to describe how changes       and read policies and procedures to
      payroll master files and        to the payroll master files and          confirm that changes to the payroll
      withholding tables are          withholding tables are authorized,       master files and withholding tables are
      authorized, input, and          input, and processed timely.             authorized, input, and processed
      processed timely.                                                        timely.

                                      Changes to the payroll master file and   Inquired with appropriate personnel       No relevant exceptions noted.
                                      withholding table data are logged in     and inspected OLQs and summary
                                      numerous reports including the Master    reports to confirm that changes to the
                                      Employee Add/Change/Delete Report        payroll master file and table data are
                                      and reviewed by supervisory              logged and reviewed by supervisory
                                      personnel to ensure that all requested   personnel.
                                      changes are processed timely.

                                      Requests to change the payroll master    Inquired with appropriate personnel       DFAS Denver
                                      file data and withholding table are      and inspected a random sample of
                                      submitted on pre-numbered Remedy         45 Remedy tickets to confirm that:        Of the 45 Remedy tickets inspected,
                                      tickets; the numerical sequence of the                                             2 tickets were not completed within
                                      Remedy tickets is accounted for to       1) tickets are pre-numbered,              the required 3-10 day time frame.
                                      ensure that the requested changes are    2) the sequence is accounted for so       DFAS Pensacola
                                      processed timely. Access to source       that the forms are accounted for
                                      documents is controlled; key source      timely,                                   Of the 45 Remedy tickets inspected,
                                      documents require signatures from                                                  3 tickets were not completed within
                                      supervisory personnel.                   3) access to the source documents is      the required 3-10 day time frame.
                                                                               controlled,


                                                                     28
No.   Control Objective   Control Activities                        Tests Performed                          Results of Testing

                                                                    4) key source documents require          DFAS-Charleston
                                                                    signatures from supervisory
                                                                    personnel, and                           Of the 45 Remedy tickets inspected,
                                                                                                             6 tickets were not completed within
                                                                    5) tickets are completed within the      the required 3-10 day time frame.
                                                                    required time frame.
                                                                                                             All Payroll Offices
                                                                                                             Remedy tickets were not
                                                                                                             sequentially numbered. Remedy
                                                                                                             tickets used for testing purposes
                                                                                                             were deleted. Documentation was
                                                                                                             not maintained for these tickets.

                          Payroll master file data and              Inquired with appropriate personnel      DFAS Denver
                          withholding table data are edited and     and inspected a random sample of
                          validated, and errors identified on the   45 Personnel Interface Invalid Reports   OMA Pay Database
                          Personnel Interface Invalid Report are    for erroneous transactions to confirm    Of the 45 Personnel Interface
                          corrected promptly.                       that items are investigated and          Invalid Reports inspected, 3 reports
                                                                    resolved timely.                         did not include a date indicating
                                                                    Selected a random sample of              when actions to correct the errors
                                                                    45 Personnel Interface Invalid Reports   had been completed. In addition,
                                                                    for the OMA pay database. In             35 of the 45 Personnel Interface
                                                                    addition, the ZPA pay database only      Invalid Reports inspected did not
                                                                    processed data for two pay periods,      include annotations indicating how
                                                                    therefore, we reviewed all               the errors were corrected.
                                                                    16 Personnel Interface Invalid Reports   ZPA Pay Database
                                                                    during that period at DFAS Denver.
                                                                    As a result, 61 Personnel Interface      Of the 16 Personnel Interface
                                                                    Invalid Reports were selected for        Invalid Reports inspected, 1 report
                                                                    review at DFAS Denver.                   did not include annotations
                                                                                                             indicating how the errors were
                                                                    Selected a random sample of              corrected.
                                                                    45 Personnel Interface Invalid Reports
                                                                    beginning on February 14, 2006, at
                                                                    DFAS Charleston.                         DFAS Pensacola
                                                                                                             Of the 45 Personnel Interface
                                                                                                             Invalid Reports selected for review,
                                                                                                             1 report could not be located. Of
                                                                                                             the 44 Personnel Interface Invalid
                                                                                                             Reports inspected, 25 reports were
                                                                                                             annotated; however, sufficient

                                                          29
No.   Control Objective   Control Activities                      Tests Performed                           Results of Testing

                                                                                                            detail did not exist to determine
                                                                                                            whether all errors within the report
                                                                                                            were resolved.
                                                                                                            In addition, 19 of the 44 Personnel
                                                                                                            Interface Invalid Reports inspected
                                                                                                            were annotated in Microsoft Word,
                                                                                                            but did not include the annotator’s
                                                                                                            signature or date of annotation.
                                                                                                            DFAS Charleston
                                                                                                            Personnel Interface Invalid Reports
                                                                                                            were neither annotated, nor
                                                                                                            available for review July 1, 2005,
                                                                                                            through February 13, 2006.
                                                                                                            Of the 45 Personnel Interface
                                                                                                            Invalid Reports selected for review,
                                                                                                            3 reports could not be provided.
                                                                                                            None of the 42 Personnel Interface
                                                                                                            Invalid Reports inspected included
                                                                                                            a signature, date, and annotations
                                                                                                            indicating how the errors were
                                                                                                            corrected.

                          The ability to view, modify, or         Inquired with appropriate personnel       DFAS Denver
                          transfer information contained in the   and inspected a random sample of
                          payroll master files is restricted to   45 access forms to confirm that the       Payroll Office Users
                          authorized personnel.                   master file is restricted to authorized   Of the 12 SAAR forms selected for
                                                                  personnel.                                review, 1 form could not be located.
                                                                                                            Non-Payroll Office Users
                                                                                                            Of the 15 SAAR forms inspected, 1
                                                                                                            form did not include the completion
                                                                                                            date of the initial computer-based
                                                                                                            security training. In addition, 1 of
                                                                                                            the 15 SAAR forms inspected did
                                                                                                            not include a supervisor’s signature.
                                                                                                            The ZPA database included
                                                                                                            42 users with supervisory-level
                                                                                                            access.


                                                          30
No.   Control Objective   Control Activities        Tests Performed   Results of Testing

                                                                      DFAS Pensacola
                                                                      Payroll Office Users
                                                                      Of the nine SAAR forms selected
                                                                      for review, one form could not be
                                                                      located. Of the eight SAAR forms
                                                                      inspected, two forms did not
                                                                      include the completion date of the
                                                                      initial computer-based security
                                                                      training.
                                                                      Non-Payroll Office Users
                                                                      Of the 26 SAAR forms selected for
                                                                      review, 4 forms could not be
                                                                      located. Of the 22 SAAR forms
                                                                      inspected, 3 forms did not include
                                                                      the completion date of the initial
                                                                      computer-based security training.
                                                                      In addition, 2 of the 22 SAAR
                                                                      forms inspected did not include the
                                                                      supervisor’s signature.
                                                                      DFAS Charleston
                                                                      Payroll Office Users
                                                                      Of the 24 SAAR forms selected for
                                                                      review, 1 form could not be located.
                                                                      Of the 23 SAAR forms inspected, 1
                                                                      form did not match the level of
                                                                      authorized access actually granted.
                                                                      The Charleston payroll office had
                                                                      133 DCPS users with access to
                                                                      update time and attendance and
                                                                      Master Employee data.
                                                                      Non-Payroll Office Users
                                                                      No relevant exceptions noted.




                                               31
No.   Control Objective                Control Activities                        Tests Performed                           Results of Testing


3     Controls provide reasonable      Policies and procedures are               Inquired with appropriate personnel       No relevant exceptions noted.
      assurance that payroll           documented to describe how payroll        and read policies and procedures to
      processing is accurate and       processing is accurate and recorded in    confirm that payroll processing is
      recorded in the proper period.   the proper period.                        accurate and recorded in the
                                                                                 appropriate period.

                                       Compliance with the payroll               Inquired with appropriate personnel       No relevant exceptions noted.
                                       disbursement processing schedule is       and inspected pay processing
                                       monitored by management.                  schedules and observed payroll
                                                                                 disbursement process to confirm the
                                                                                 monitoring of payroll disbursement
                                                                                 processing schedule by management.

                                       The detailed “592” payroll                Inquired with appropriate personnel       DFAS Pensacola
                                       reconciliation shows that all pertinent   and examined a sample of 26 “592”
                                       data describing the payroll (including    reconciliations for each database to      Of the 26 “592” reconciliation
                                       total disbursements, retirement, TSP,     confirm the following conditions          reports inspected, 1 report did not
                                       bonds, and other withholdings) and        exist.                                    include a preparer’s signature and
                                       the related balances are reconciled, in                                             date. In addition, the Withholdings
                                       the appropriate accounting period, to     1) The detailed payroll reconciliation    for Benefits report did not have a
                                       corresponding general ledger accounts     shows that all pertinent data             Certifying Officer's signature and
                                       within DCPS. All reconciled items         describing the payroll (including total   date. However, DFAS Denver
                                       are investigated and cleared on a         disbursements, retirement, TSP,           maintained a signed copy of the
                                       timely basis by supervisors prior to      bonds, and other withholdings) and        “592” reconciliation report that they
                                       disbursement.                             the related balances are reconciled, in   processed during contingency
                                                                                 the appropriate accounting period, to     operations on behalf of DFAS
                                                                                 corresponding general ledger accounts     Pensacola.
                                                                                 within DCPS.
                                                                                                                           DFAS Denver
                                                                                 2) Each “592” reconciliation is
                                                                                 approved by management prior to           No relevant exceptions noted.
                                                                                 disbursement.                             DFAS Charleston
                                                                                 3) Reconciled items are investigated      No relevant exceptions noted.
                                                                                 and cleared on a timely basis by
                                                                                 supervisors prior to disbursement.




                                                                       32
No.   Control Objective               Control Activities                        Tests Performed                           Results of Testing


                                      Summary payroll reports (including        Inquired with appropriate personnel       No relevant exceptions noted.
                                      OLQs of total disbursements,              and inspected summary reports and
                                      retirement, TSP, bonds, and other         OLQs to confirm they are reviewed
                                      withholdings) are reviewed and            and approved by management prior to
                                      approved by management prior to           disbursement.
                                      disbursement.

4     Controls provide reasonable     Policies and procedures are               Inquired with appropriate personnel       No relevant exceptions noted.
      assurance that disbursed        documented to describe how                and read policies and procedures to
      payroll (including              disbursed payroll (including              confirm that disbursed payroll is
      compensation and withholding)   compensation and withholding) is          accurately calculated and recorded.
      is accurately calculated and    calculated and recorded.
      recorded.
                                      The detailed “592” payroll                Inquired with appropriate personnel       DFAS Pensacola
                                      reconciliation shows all pertinent data   and examined a sample of 26 “592”
                                      describing the payroll (including total   reconciliations for each database to      Of the 26 “592” reconciliation
                                      disbursements, retirement, TSP,           confirm that the following conditions     reports inspected, 1 report did not
                                      bonds, and other withholdings) and        exist.                                    include a preparer’s signature and
                                      the related balances are reconciled, in                                             date. In addition, the Withholdings
                                      the appropriate accounting period, to     1) The detailed payroll reconciliation    for Benefits report did not have a
                                      corresponding general ledger accounts     shows that all pertinent data             Certifying Officer's signature and
                                      within DCPS. All reconciled items         describing the payroll (including total   date. However, DFAS Denver
                                      are investigated and cleared on a         disbursements, retirement, TSP,           maintained a signed copy of the
                                      timely basis by supervisory personnel     bonds, and other withholdings) and        “592” reconciliation report that they
                                      prior to disbursement.                    the related balances are reconciled, in   processed during contingency
                                                                                the appropriate accounting period, to     operations on behalf of DFAS
                                                                                corresponding general ledger accounts     Pensacola.
                                                                                within DCPS.
                                                                                                                          DFAS Denver
                                                                                2) Each “592” reconciliation is
                                                                                approved by management prior to           No relevant exceptions noted.
                                                                                disbursement.                             DFAS Charleston
                                                                                3) Reconciled items are investigated      No relevant exceptions noted.
                                                                                and cleared on a timely basis by
                                                                                supervisory personnel prior to
                                                                                disbursement.




                                                                      33
No.   Control Objective                  Control Activities                     Tests Performed                          Results of Testing


                                         Summary payroll reports (including     Inquired with appropriate personnel      No relevant exceptions noted.
                                         OLQs of total disbursements,           and inspected summary reports and
                                         retirement, TSP, bonds, and other      OLQs to confirm they are reviewed
                                         withholdings) are reviewed and         and approved by management prior to
                                         approved by management prior to        disbursement.
                                         disbursement.

                                         DCPS performs limit and                Inquired with appropriate personnel      No relevant exceptions noted.
                                         reasonableness checks on employee      and inspected the limit and
                                         earnings.                              reasonableness report to confirm
                                                                                reasonableness checks are performed
                                                                                on employee earnings.

                                         Programmed validation and edit         Observed the input of new employees      No relevant exceptions noted.
                                         checks identify erroneous data.        into DCPS to confirm that
                                                                                programmed validation and edit
                                                                                checks identify erroneous data entered
                                                                                directly into DCPS.

5     Controls provide reasonable        Policies and procedures are            Inquired with appropriate personnel      No relevant exceptions noted.
      assurance that only valid,         documented to describe how only        and read policies and procedures to
      authorized employees are paid      valid, authorized employees are paid   confirm that only valid, authorized
      and that payroll is disbursed to   and that payroll is disbursed to       employees are paid and that payroll is
      appropriate employees.             appropriate employees.                 disbursed to appropriate employees.

                                         OLQs and summary reports (including    Inquired with appropriate personnel      No relevant exceptions noted.
                                         the Master Employee                    and inspected OLQs and summary
                                         Add/Change/Delete Report) are          reports to confirm that master files
                                         periodically reviewed by supervisory   and withholding tables are
                                         personnel to determine if the master   periodically reviewed by supervisory
                                         files remain accurate and pertinent.   personnel.




                                                                        34
No.   Control Objective   Control Activities                        Tests Performed                           Results of Testing


                          Departmental managers periodically        Inquired with appropriate personnel       No relevant exceptions noted.
                          review listings (including the            and inspected the Personnel/Payroll
                          Personnel/Payroll Reconciliation or       Reconciliation or Control of Hours
                          Control of Hours Report) of current       Reports to confirm that they are sent
                          employees within their departments        to management for review of
                          and notify the personnel department of    employee listings and notification to
                          necessary changes. All payroll            personnel department of changes.
                          queries are followed up by persons
                          independent of the payroll preparation
                          and disbursement process.

                          The detailed “592” payroll                Inquired with appropriate personnel       DFAS Pensacola
                          reconciliation shows that all pertinent   and examined a sample of 26 “592”
                          data describing the payroll (including    reconciliations for each database to      Of the 26 “592” reconciliation
                          total disbursements, retirement, TSP,     confirm that the following conditions     reports inspected, 1 report did not
                          bonds, and other withholdings) and        exist.                                    include a preparer’s signature and
                          the related balances are reconciled, in                                             date. In addition, the Withholdings
                          the appropriate accounting period, to     1) The detailed payroll reconciliation    for Benefits report did not have a
                          corresponding general ledger accounts     shows that all pertinent data             Certifying Officer's signature and
                          within DCPS. All reconciled items         describing the payroll (including total   date. However, DFAS Denver
                          are investigated and cleared on a         disbursements, retirement, TSP,           maintained a signed copy of the
                          timely basis by supervisory personnel     bonds, and other withholdings) and        “592” reconciliation report that they
                          prior to disbursement.                    the related balances are reconciled, in   processed during contingency
                                                                    the appropriate accounting period, to     operations on behalf of DFAS
                                                                    corresponding general ledger accounts     Pensacola.
                                                                    within DCPS.
                                                                                                              DFAS Denver
                                                                    2) Each “592” reconciliation is
                                                                    approved by management prior to           No relevant exceptions noted.
                                                                    disbursement.                             DFAS Charleston
                                                                    3) Reconciled items are investigated      No relevant exceptions noted.
                                                                    and cleared on a timely basis by
                                                                    supervisory personnel prior to
                                                                    disbursement.

                          Summary payroll reports (including        Inquired with appropriate personnel       No relevant exceptions noted.
                          OLQs of total disbursements,              and inspected summary reports and
                          retirement, TSP, bonds, and other         OLQs to confirm that they are
                          withholdings) are reviewed and            reviewed and approved by
                          approved by management prior to           management prior to disbursement.
                          disbursement.

                                                          35
No.   Control Objective                Control Activities                        Tests Performed                           Results of Testing


                                       Only authorized personnel have the        Inquired with the appropriate             No relevant exceptions noted.
                                       ability to disburse payroll.              personnel, observed the disbursement
                                                                                 of payroll, and inspected a random
                                                                                 sample of DCPS user profiles for
                                                                                 disbursement privileges to confirm
                                                                                 that only authorized personnel have
                                                                                 the ability to disburse payroll.

6     Controls provide reasonable      Policies and procedures are               Inquired with appropriate personnel       No relevant exceptions noted.
      assurance of the integrity and   documented to describe how                and read policies and procedures to
      reliability of DCPS data for     management ensures that controls          confirm that controls provide
      financial reporting purposes.    provide reasonable assurance of the       reasonable assurance of the integrity
                                       integrity and reliability of DCPS data    and reliability of DCPS data for
                                       for financial reporting purposes.         financial reporting purposes.

                                       Payroll transactions at the end of a      Inquired with appropriate personnel       No relevant exceptions noted.
                                       payroll cycle are reconciled by           and examined a sample of 26 “592”
                                       supervisors to ensure complete and        payroll reconciliations at the end of a
                                       consistent recording in the appropriate   payroll cycle to confirm they are
                                       accounting period.                        reconciled to ensure complete and
                                                                                 consistent recording in the appropriate
                                                                                 accounting period.

                                       Error reports (for example, the           Inquired with appropriate personnel       DFAS Denver
                                       Personnel Interface Invalid Report),      and inspected error warnings and a
                                       and error warnings show rejected          random sample of 45 Personnel             OMA Pay Database
                                       transactions with error messages that     Interface Invalid Reports to confirm      Of the 45 Personnel Interface
                                       have clearly understandable corrective    that they show rejected transactions      Invalid Reports inspected, 3 reports
                                       actions for each type of error.           with error messages that have clearly     did not include a date indicating
                                                                                 understandable corrective actions for     when actions to correct the errors
                                                                                 each type of error.                       had been completed. In addition,
                                                                                 Selected a random sample of               35 of the 45 Personnel Interface
                                                                                 45 Personnel Interface Invalid Reports    Invalid Reports inspected did not
                                                                                 for the OMA pay database. In              include annotations indicating how
                                                                                 addition, the ZPA pay database only       the errors were corrected.
                                                                                 processed data for two pay periods,
                                                                                 therefore, we reviewed all
                                                                                 16 Personnel Interface Invalid Reports
                                                                                 during that period at DFAS Denver.
                                                                                 As a result, 61 Personnel Interface

                                                                       36
No.   Control Objective   Control Activities        Tests Performed                          Results of Testing

                                                    Invalid Reports were selected for        ZPA Pay Database
                                                    review at DFAS Denver.
                                                                                             Of the 16 Personnel Interface
                                                    Selected a random sample of              Invalid Reports inspected, 1 report
                                                    45 Personnel Interface Invalid Reports   did not include annotations
                                                    beginning on February 14, 2006, at       indicating how the errors were
                                                    DFAS Charleston.                         corrected.
                                                                                             DFAS Pensacola
                                                                                             Of the 45 Personnel Interface
                                                                                             Invalid Reports selected for review,
                                                                                             1 report could not be located. Of
                                                                                             the 44 Personnel Interface Invalid
                                                                                             Reports inspected, 25 reports were
                                                                                             annotated; however, sufficient
                                                                                             detail did not exist to determine
                                                                                             whether all errors within the report
                                                                                             were resolved.
                                                                                             In addition, 19 of the 44 Personnel
                                                                                             Interface Invalid Reports inspected
                                                                                             were annotated in Microsoft Word,
                                                                                             but did not include the annotator’s
                                                                                             signature or date of annotation.
                                                                                             DFAS Charleston
                                                                                             Personnel Interface Invalid Reports
                                                                                             were neither annotated, nor
                                                                                             available for review July 1, 2005,
                                                                                             through February 13, 2006.
                                                                                             Of the 45 Personnel Interface
                                                                                             Invalid Reports selected for review,
                                                                                             3 reports could not be provided.
                                                                                             None of the 42 Personnel Interface
                                                                                             Invalid Reports inspected included
                                                                                             a signature, date, and annotations
                                                                                             indicating how the errors were
                                                                                             corrected.




                                               37
No.   Control Objective   Control Activities                         Tests Performed                             Results of Testing


                          Rejected data are automatically            Inquired with the appropriate               DFAS Denver
                          written to the Personnel Interface         personnel and inspected the Personnel
                          Invalid Report and held until corrected    Interface Invalid Report of rejected        OMA Pay Database
                          by payroll technicians, and each           data to confirm that the rejected data      Of the 45 Personnel Interface
                          erroneous transaction is annotated         are automatically written on an             Invalid Reports inspected, 3 reports
                          with codes indicating the type of data     automated error suspense file and held      did not include a date indicating
                          error, the date and time the transaction   until corrected by payroll technicians,     when actions to correct the errors
                          was processed and the error identified,    and each erroneous transaction is           had been completed. In addition,
                          and the identity of the user who           annotated with codes indicating the         35 of the 45 Personnel Interface
                          originated the transaction.                type of data error, the date and time       Invalid Reports inspected did not
                                                                     the transaction was processed and the       include annotations indicating how
                                                                     error identified, and the identity of the   the errors were corrected.
                                                                     user who originated the transaction.
                                                                                                                 ZPA Pay Database
                                                                     Selected a random sample of
                                                                     45 Personnel Interface Invalid Reports      Of the 16 Personnel Interface
                                                                     for the OMA pay database. In                Invalid Reports inspected, 1 report
                                                                     addition, the ZPA pay database only         did not include annotations
                                                                     processed data for two pay periods,         indicating how the errors were
                                                                     therefore, we reviewed all                  corrected.
                                                                     16 Personnel Interface Invalid Reports      DFAS Pensacola
                                                                     during that period at DFAS Denver.
                                                                     As a result, 61 Personnel Interface         Of the 45 Personnel Interface
                                                                     Invalid Reports were selected for           Invalid Reports selected for review,
                                                                     review at DFAS Denver.                      1 report could not be located. Of
                                                                                                                 the 44 Personnel Interface Invalid
                                                                     Selected a random sample of                 Reports inspected, 25 reports were
                                                                     45 Personnel Interface Invalid Reports      annotated; however, sufficient
                                                                     beginning on February 14, 2006, at          detail did not exist to determine
                                                                     DFAS Charleston.                            whether all errors within the report
                                                                                                                 were resolved.
                                                                                                                 In addition, 19 of the 44 Personnel
                                                                                                                 Interface Invalid Reports inspected
                                                                                                                 were annotated in Microsoft Word,
                                                                                                                 but did not include the annotator’s
                                                                                                                 signature or date of annotation.




                                                          38
No.   Control Objective                 Control Activities                        Tests Performed                           Results of Testing

                                                                                                                            DFAS Charleston
                                                                                                                            Personnel Interface Invalid Reports
                                                                                                                            were neither annotated, nor
                                                                                                                            available for review July 1, 2005,
                                                                                                                            through February 13, 2006.
                                                                                                                            Of the 45 Personnel Interface
                                                                                                                            Invalid Reports selected for review,
                                                                                                                            3 reports could not be provided.
                                                                                                                            None of the 42 Personnel Interface
                                                                                                                            Invalid Reports inspected included
                                                                                                                            a signature, date, and annotations
                                                                                                                            indicating how the errors were
                                                                                                                            corrected.

7     Controls provide reasonable       Policies and procedures are               Inquired with appropriate personnel       No relevant exceptions noted.
      assurance that fiscal year-end,   documented to describe how fiscal         and read policies and procedures to
      leave year-end, and calendar      year-end, leave year-end, and calendar    confirm that capabilities exist for
      year-end processing occurs in     year-end processing occurs in             fiscal year-end, leave year-end, and
      accordance with established       accordance with established               calendar year-end processing and
      Government-wide and agency        Government-wide and agency                forfeitures in accordance with
      guidelines.                       guidelines.                               established Government-wide and
                                                                                  agency guidelines.

                                        Payroll withholding table data are        Inspected payroll withholding table       No relevant exceptions noted.
                                        periodically reviewed by supervisors      data updates to confirm they are
                                        for compliance with statutory             periodically updated by supervisory
                                        requirements.                             personnel for compliance with
                                                                                  statutory requirements.



                                        The detailed “592” payroll                Inquired with appropriate personnel       DFAS Pensacola
                                        reconciliation shows that all pertinent   and examined a sample of 26 “592”
                                        data describing the payroll (including    reconciliations for each database to      Of the 26 “592” reconciliation
                                        total disbursements, retirement, TSP,     confirm the following conditions          reports inspected, 1 report did not
                                        bonds, and other withholdings) and        exist.                                    include a preparer’s signature and
                                        the related balances are reconciled, in                                             date. In addition, the Withholdings
                                        the appropriate accounting period, to     1) The detailed payroll reconciliation    for Benefits report did not have a
                                        corresponding general ledger accounts     shows that only pertinent data            Certifying Officer's signature and
                                        within DCPS. All reconciled items         describing the payroll (including total   date. However, DFAS Denver


                                                                        39
No.   Control Objective   Control Activities                      Tests Performed                           Results of Testing

                          are investigated and cleared on a       disbursements, retirement, TSP,           maintained a signed copy of the
                          timely basis by supervisory personnel   bonds, and other withholdings) and        “592” reconciliation report that they
                          prior to disbursement.                  the related balances are reconciled, in   processed during contingency
                                                                  the appropriate accounting period, to     operations on behalf of DFAS
                                                                  corresponding general ledger accounts     Pensacola.
                                                                  within DCPS.
                                                                                                            DFAS Denver
                                                                  2) Each “592” reconciliation is
                                                                  approved by management prior to           No relevant exceptions noted.
                                                                  disbursement.                             DFAS Charleston
                                                                  3) Reconciled items are investigated      No relevant exceptions noted.
                                                                  and cleared on a timely basis by
                                                                  supervisory personnel prior to
                                                                  disbursement.

                          The data processing control group has   Inquired with appropriate personnel       No relevant exceptions noted.
                          a schedule by application that shows    and inspected the schedules used by
                          when outputs should be completed,       the data processing group to confirm
                          when they need to be distributed, who   that they:
                          the recipients are, and the copies
                          needed; reviews output products for     1) have a schedule by application that
                          general acceptability; and reconciles   shows when outputs need to be
                          control information to determine        completed, when they need to be
                          completeness of processing.             distributed, who the recipients are,
                                                                  and the copies needed;
                                                                  2) review output products for general
                                                                  acceptability;
                                                                  3) reconcile control information to
                                                                  determine completeness of
                                                                  processing.

                          Users review the Personnel Interface    Inquired with appropriate personnel       DFAS Denver
                          Invalid Reports for data accuracy,      and inspected a random sample of
                          validity, and completeness.             45 Personnel Interface Invalid Reports    OMA Pay Database
                                                                  that users review for output to confirm   Of the 45 Personnel Interface
                                                                  that the reports are reviewed for data    Invalid Reports inspected, 3 reports
                                                                  accuracy, validity, and completeness.     did not include a date indicating
                                                                  Selected a random sample of               when actions to correct the errors
                                                                  45 Personnel Interface Invalid Reports    had been completed. In addition,
                                                                  for the OMA pay database. In              35 of the 45 Personnel Interface


                                                         40
No.   Control Objective   Control Activities        Tests Performed                          Results of Testing

                                                    addition, the ZPA pay database only      Invalid Reports inspected did not
                                                    processed data for two pay periods,      include annotations indicating how
                                                    therefore, we reviewed all               the errors were corrected.
                                                    16 Personnel Interface Invalid Reports
                                                    during that period at DFAS Denver.       ZPA Pay Database
                                                    As a result, 61 Personnel Interface      Of the 16 Personnel Interface
                                                    Invalid Reports were selected for        Invalid Reports inspected, 1 report
                                                    review at DFAS Denver.                   did not include annotations
                                                    Selected a random sample of              indicating how the errors were
                                                    45 Personnel Interface Invalid Reports   corrected.
                                                    beginning on February 14, 2006, at       DFAS Pensacola
                                                    DFAS Charleston.
                                                                                             Of the 45 Personnel Interface
                                                                                             Invalid Reports selected for review,
                                                                                             1 report could not be located. Of
                                                                                             the 44 Personnel Interface Invalid
                                                                                             Reports inspected, 25 reports were
                                                                                             annotated; however, sufficient
                                                                                             detail did not exist to determine
                                                                                             whether all errors within the report
                                                                                             were resolved.
                                                                                             In addition, 19 of the 44 Personnel
                                                                                             Interface Invalid Reports inspected
                                                                                             were annotated in Microsoft Word,
                                                                                             but did not include the annotator’s
                                                                                             signature or date of annotation.
                                                                                             DFAS Charleston
                                                                                             Personnel Interface Invalid Reports
                                                                                             were neither annotated, nor
                                                                                             available for review July 1, 2005,
                                                                                             through February 13, 2006.
                                                                                             Of the 45 Personnel Interface
                                                                                             Invalid Reports selected for review,
                                                                                             3 reports could not be provided.
                                                                                             None of the 42 Personnel Interface
                                                                                             Invalid Reports inspected included
                                                                                             a signature, date, and annotations
                                                                                             indicating how the errors were
                                                                                             corrected.


                                               41
No.   Control Objective                   Control Activities                        Tests Performed                            Results of Testing


8     Controls provide reasonable         Policies and procedures are               Inquired with appropriate personnel        No relevant exceptions noted.
      assurance that current- or prior-   documented to describe how current-       and read policies and procedures to
      period adjustments to               or prior-period adjustments to            confirm that current- or prior-period
      employee's pay, including           employee's pay, including employee        adjustments to employee's pay,
      employee debt, tax deduction,       debt, tax deductions, or deductions not   including employee debt, tax
      or deductions not taken, are        taken, are reported, reconciled, and      deductions, or deductions not taken,
      reported, reconciled, and           approved.                                 are reported, reconciled, and
      approved.                                                                     approved.

                                          The detailed “592” payroll                Inquired with appropriate personnel        DFAS Pensacola
                                          reconciliation shows that all pertinent   and examined a sample of 26 “592”
                                          data describing the payroll (including    reconciliations for each database to       Of the 26 “592” reconciliation
                                          total disbursements, retirement, TSP,     confirm that the following conditions      reports inspected, 1 report did not
                                          bonds, and other withholdings) and        exist.                                     include a preparer’s signature and
                                          the related balances are reconciled, in                                              date. In addition, the Withholdings
                                          the appropriate accounting period, to     1) The detailed payroll reconciliation     for Benefits report did not have a
                                          corresponding general ledger accounts     shows that all pertinent data              Certifying Officer's signature and
                                          within DCPS. All reconciled items         describing the payroll (including total    date. However, DFAS Denver
                                          are investigated and cleared on a         disbursements, retirement, TSP,            maintained a signed copy of the
                                          timely basis by supervisory personnel     bonds, and other withholdings) and         “592” reconciliation report that they
                                          prior to disbursement.                    the related balances are reconciled, in    processed during contingency
                                                                                    the appropriate accounting period, to      operations on behalf of DFAS
                                                                                    corresponding general ledger accounts      Pensacola.
                                                                                    within DCPS.
                                                                                                                               DFAS Denver
                                                                                    2) Each “592” reconciliation is
                                                                                    approved by management prior to            No relevant exceptions noted.
                                                                                    disbursement.                              DFAS Charleston
                                                                                    3) Reconciled items are investigated       No relevant exceptions noted.
                                                                                    and cleared on a timely basis by
                                                                                    supervisory personnel prior to
                                                                                    disbursement.

                                          OLQs and summary reports (including       Inquired with appropriate personnel        No relevant exceptions noted.
                                          the Master Employee                       and inspected OLQs and summary
                                          Add/Change/Delete Report) are             reports to confirm that master files are
                                          periodically reviewed by supervisory      periodically reviewed by supervisory
                                          personnel to determine if the master      personnel.
                                          files remain accurate and pertinent.



                                                                          42
No.   Control Objective   Control Activities                      Tests Performed                           Results of Testing


                          The ability to view, modify, or         Inquired with appropriate personnel       DFAS Denver
                          transfer information contained in the   and inspected a random sample of
                          payroll master files is restricted to   45 access forms to confirm that the       Payroll Office Users
                          authorized personnel.                   master file is restricted to authorized   Of the 12 SAAR forms selected for
                                                                  personnel.                                review, 1 form could not be located.
                                                                                                            Non-Payroll Office Users
                                                                                                            Of the 15 SAAR forms inspected, 1
                                                                                                            form did not include the completion
                                                                                                            date of the initial computer-based
                                                                                                            security training. In addition, 1 of
                                                                                                            the 15 SAAR forms inspected did
                                                                                                            not include a supervisor’s signature.
                                                                                                            The ZPA database included
                                                                                                            42 users with supervisory-level
                                                                                                            access.
                                                                                                            DFAS Pensacola
                                                                                                            Payroll Office Users
                                                                                                            Of the nine SAAR forms selected
                                                                                                            for review, one form could not be
                                                                                                            located. Of the eight SAAR forms
                                                                                                            inspected, two forms did not
                                                                                                            include the completion date of the
                                                                                                            initial computer-based security
                                                                                                            training.
                                                                                                            Non-Payroll Office Users
                                                                                                            Of the 26 SAAR forms selected for
                                                                                                            review, 4 forms could not be
                                                                                                            located. Of the 22 SAAR forms
                                                                                                            inspected, 3 forms did not include
                                                                                                            the completion date of the initial
                                                                                                            computer-based security training.
                                                                                                            In addition, 2 of the 22 SAAR
                                                                                                            forms inspected did not include the
                                                                                                            supervisor’s signature.




                                                          43
No.   Control Objective   Control Activities                       Tests Performed                        Results of Testing

                                                                                                          DFAS Charleston
                                                                                                          Payroll Office Users
                                                                                                          Of the 24 SAAR forms selected for
                                                                                                          review, 1 form could not be located.
                                                                                                          Of the 23 SAAR forms inspected, 1
                                                                                                          form did not match the level of
                                                                                                          authorized access actually granted.
                                                                                                          The Charleston payroll office had
                                                                                                          133 DCPS users with access to
                                                                                                          update time and attendance and
                                                                                                          Master Employee data.
                                                                                                          Non-Payroll Office Users
                                                                                                          No relevant exceptions noted.

                          Requests to change the payroll master    Inquired with appropriate personnel    DFAS Denver
                          file data and withholding table are      and inspected a random sample of
                          submitted on pre-numbered Remedy         45 Remedy tickets to confirm that:     Of the 45 Remedy tickets inspected,
                          tickets; the numerical sequence of the                                          2 tickets were not completed within
                          Remedy tickets is accounted for to       1) tickets are pre-numbered,           the required 3-10 day time frame.
                          ensure that the requested changes are    2) the sequence is accounted for so    DFAS Pensacola
                          processed timely. Access to source       that the forms are accounted for
                          documents is controlled and key          timely,                                Of the 45 Remedy tickets inspected,
                          source documents require signatures                                             3 tickets were not completed within
                          from management.                         3) access to the source documents is   the required 3-10 day time frame.
                                                                   controlled,
                                                                                                          DFAS-Charleston
                                                                   4) key source documents require
                                                                   signatures from supervisory            Of the 45 Remedy tickets inspected,
                                                                   personnel, and                         6 tickets were not completed within
                                                                                                          the required 3-10 day time frame.
                                                                   5) tickets are completed within the
                                                                   required time frame.                   All Payroll Offices
                                                                                                          Remedy tickets were not
                                                                                                          sequentially numbered. Remedy
                                                                                                          tickets used for testing purposes
                                                                                                          were deleted. Documentation was
                                                                                                          not maintained for these tickets.




                                                         44
No.   Control Objective                Control Activities                      Tests Performed                            Results of Testing


9     All application users are        Policies and procedures are             Inquired with appropriate personnel        No relevant exceptions noted.
      appropriately identified and     documented to describe how              and read policies and procedures to
      authenticated. Access to the     application users are appropriately     confirm that users are appropriately
      application and output is        identified and authenticated. Access    identified and authenticated and that
      restricted to authorized users   to the application and output is        access to the application and output is
      for authorized purposes.         restricted to authorized users for      restricted to authorized users for
                                       authorized purposes.                    authorized purposes.

                                       Online access logs are maintained by    Inquired with appropriate personnel        No relevant exceptions noted.
                                       the SMO and the logs are reviewed       and inspected access logs and e-mails
                                       regularly for unauthorized access       for unauthorized access attempts to
                                       attempts.                               confirm that logs are maintained by
                                                                               the SMO and the logs are reviewed
                                                                               regularly for unauthorized access
                                                                               attempts.

                                       Each operator is required to complete   Inquired with appropriate personnel        DFAS Denver
                                       a SAAR form before being granted        and inspected a random sample of
                                       access to the system.                   45 user authorization forms to confirm     Payroll Office Users
                                                                               that each operator is authorized before    Of the 12 SAAR forms selected for
                                       The ability to view, modify, or         being granted access to the system
                                       transfer information contained in the                                              review, 1 form could not be located.
                                                                               and that the DCPS master file and
                                       payroll master files is restricted to   output is restricted to authorized users   Non-Payroll Office Users
                                       authorized personnel.                   for authorized purposes.                   Of the 15 SAAR forms inspected, 1
                                                                                                                          form did not include the completion
                                                                                                                          date of the initial computer-based
                                                                                                                          security training. In addition, 1 of
                                                                                                                          the 15 SAAR forms inspected did
                                                                                                                          not include a supervisor’s signature.
                                                                                                                          The ZPA database included
                                                                                                                          42 users with supervisory-level
                                                                                                                          access.
                                                                                                                          DFAS Pensacola
                                                                                                                          Payroll Office Users
                                                                                                                          Of the nine SAAR forms selected
                                                                                                                          for review, one form could not be
                                                                                                                          located. Of the eight SAAR forms
                                                                                                                          inspected, two forms did not

                                                                       45
No.   Control Objective   Control Activities                       Tests Performed                            Results of Testing

                                                                                                              include the completion date of the
                                                                                                              initial computer-based security
                                                                                                              training.
                                                                                                              Non-Payroll Office Users
                                                                                                              Of the 26 SAAR forms selected for
                                                                                                              review, 4 forms could not be
                                                                                                              located. Of the 22 SAAR forms
                                                                                                              inspected, 3 forms did not include
                                                                                                              the completion date of the initial
                                                                                                              computer-based security training.
                                                                                                              In addition, 2 of the 22 SAAR
                                                                                                              forms inspected did not include the
                                                                                                              supervisor’s signature.
                                                                                                              DFAS Charleston
                                                                                                              Payroll Office Users
                                                                                                              Of the 24 SAAR forms selected for
                                                                                                              review, 1 form could not be located.
                                                                                                              Of the 23 SAAR forms inspected, 1
                                                                                                              form did not match the level of
                                                                                                              authorized access actually granted.
                                                                                                              The Charleston payroll office had
                                                                                                              133 DCPS users with access to
                                                                                                              update time and attendance and
                                                                                                              Master Employee data.
                                                                                                              Non-Payroll Office Users
                                                                                                              No relevant exceptions noted.

                          Departmental managers periodically       Inquired with appropriate personnel        No relevant exceptions noted.
                          review listings (including the           and inspected the Personnel/Payroll
                          Personnel/Payroll Reconciliation and     Reconciliation and Control of Hours
                          Control of Hours Report) of current      reports to confirm that they are sent to
                          employees within their departments       management for review of employee
                          and notify the personnel department of   listings and notification to personnel
                          necessary changes.                       department of changes.




                                                         46
No.   Control Objective                 Control Activities                      Tests Performed                          Results of Testing


10    Controls provide reasonable       Policies and procedures are             Inquired with appropriate personnel      No relevant exceptions noted.
      assurance that data               documented to describe how data         and read policies and procedures to
      transmissions in DCPS from        transmissions in DCPS from              confirm that data transmissions
      user organizations are            organizations are authorized,           between DCPS and user organizations
      authorized, complete, accurate,   complete, accurate, and secure.         are authorized, complete, accurate,
      and secure.                                                               and secure.

                                        Compliance with the payroll             Inquired with appropriate personnel,     No relevant exceptions noted.
                                        disbursement processing schedule is     inspected pay processing schedules,
                                        monitored by management.                and observed the payroll disbursement
                                                                                process to confirm the monitoring of
                                                                                payroll disbursement processing
                                                                                schedule by management.

                                        Each operator is required to complete   Inquired with appropriate personnel      DFAS Denver
                                        a SAAR form before being granted        and inspected a random sample of
                                        access to the system.                   45 user authorization forms to confirm   Payroll Office Users
                                                                                that each operator is required to have   Of the 12 SAAR forms selected for
                                        User profiles limit what transactions   an authorization form before being
                                        data entry personnel can input.                                                  review, 1 form could not be located.
                                                                                granted access to the system and user
                                                                                profiles limit what transactions data    Non-Payroll Office Users
                                                                                entry personnel can input.               Of the 15 SAAR forms inspected, 1
                                                                                                                         form did not include the completion
                                                                                                                         date of the initial computer-based
                                                                                                                         security training. In addition, 1 of
                                                                                                                         the 15 SAAR forms inspected did
                                                                                                                         not include a supervisor’s signature.
                                                                                                                         The ZPA database included
                                                                                                                         42 users with supervisory-level
                                                                                                                         access.




                                                                        47
No.   Control Objective   Control Activities        Tests Performed   Results of Testing

                                                                      DFAS Pensacola
                                                                      Payroll Office Users
                                                                      Of the nine SAAR forms selected
                                                                      for review, one form could not be
                                                                      located. Of the eight SAAR forms
                                                                      inspected, two forms did not
                                                                      include the completion date of the
                                                                      initial computer-based security
                                                                      training.
                                                                      Non-Payroll Office Users
                                                                      Of the 26 SAAR forms selected for
                                                                      review, 4 forms could not be
                                                                      located. Of the 22 SAAR forms
                                                                      inspected, 3 forms did not include
                                                                      the completion date of the initial
                                                                      computer-based security training.
                                                                      In addition, 2 of the 22 SAAR
                                                                      forms inspected did not include the
                                                                      supervisor’s signature.
                                                                      DFAS Charleston
                                                                      Payroll Office Users
                                                                      Of the 24 SAAR forms selected for
                                                                      review, 1 form could not be located.
                                                                      Of the 23 SAAR forms inspected, 1
                                                                      form did not match the level of
                                                                      authorized access actually granted.
                                                                      The Charleston payroll office had
                                                                      133 DCPS users with access to
                                                                      update time and attendance and
                                                                      Master Employee data.
                                                                      Non-Payroll Office Users
                                                                      No relevant exceptions noted.




                                               48
No.   Control Objective   Control Activities                       Tests Performed                           Results of Testing


                          Remote terminal connections are          Inquired with appropriate personnel       No relevant exceptions noted.
                          secured and are connected through        and observed remote terminal
                          Government-issued computers.             connections to confirm they are
                                                                   secured and are connected through
                                                                   Government computers.

                          Data entry terminals are connected to    Inquired with appropriate personnel       No relevant exceptions noted.
                          the system only during specified         and observed after-hours processes to
                          periods of the day, which corresponds    confirm terminals are not authorized
                          with the business hours of the data      to be connected after business hours.
                          entry personnel.

                          User identification and passwords are    Inquired with appropriate personnel       No relevant exceptions noted.
                          required to gain access to the DCPS      and observed the DCPS log-in screen
                          application.                             to confirm that user identification and
                                                                   passwords are required to gain access
                                                                   to the DCPS application.

                          Online access logs are maintained by     Inquired with appropriate personnel       No relevant exceptions noted.
                          the SMO and the logs are reviewed        and inspected access logs and e-mails
                          regularly for unauthorized access        for unauthorized access attempts to
                          attempts.                                confirm that logs are maintained by
                                                                   the SMO and the logs are reviewed
                                                                   regularly for unauthorized access
                                                                   attempts.

                          Each terminal automatically              Inquired with appropriate personnel       No relevant exceptions noted.
                          disconnects from the system when not     and observed system inactivity to
                          used after a specified period of time.   confirm that each terminal
                                                                   automatically disconnects from the
                                                                   system when not used within
                                                                   15 minutes.

                          When terminals are not in use,           Inquired with appropriate personnel       No relevant exceptions noted.
                          terminal rooms are locked or the         and observed the facility to confirm
                          terminals are secured.                   that when terminals are not in use,
                                                                   terminal rooms are locked or the
                                                                   terminals were secured.



                                                         49
No.   Control Objective                 Control Activities                         Tests Performed                          Results of Testing


11    Controls are reasonable to        Policies and procedures are                Inquired with appropriate personnel      No relevant exceptions noted.
      ensure that transmissions from    documented to describe how                 and read policies and procedures to
      interfacing systems are           transactions from interfacing systems      confirm that transactions from
      subjected to the payroll system   are subjected to the payroll system        interfacing systems are subjected to
      edits, validations, and error-    edits, validations, and error-correction   the payroll system edits, validations,
      correction procedures.            procedures.                                and error-correction procedures.

                                        A control group is responsible for         Inquired with appropriate personnel      DFAS Denver
                                        controlling and monitoring rejected        and inspected a random sample of
                                        transmissions included on the              45 Personnel Interface Invalid Report    OMA Pay Database
                                        Personnel Interface Invalid Report.        to confirm that the report is used for   Of the 45 Personnel Interface
                                                                                   controlling and monitoring rejected      Invalid Reports inspected, 3 reports
                                                                                   transactions.                            did not include a date indicating
                                                                                   Selected a random sample of              when actions to correct the errors
                                                                                   45 Personnel Interface Invalid Reports   had been completed. In addition,
                                                                                   for the OMA pay database. In             35 of the 45 Personnel Interface
                                                                                   addition, the ZPA pay database only      Invalid Reports inspected did not
                                                                                   processed data for two pay periods,      include annotations indicating how
                                                                                   therefore, we reviewed all               the errors were corrected.
                                                                                   16 Personnel Interface Invalid Reports   ZPA Pay Database
                                                                                   during that period at DFAS Denver.
                                                                                   As a result, 61 Personnel Interface      Of the 16 Personnel Interface
                                                                                   Invalid Reports were selected for        Invalid Reports inspected, 1 report
                                                                                   review at DFAS Denver.                   did not include annotations
                                                                                                                            indicating how the errors were
                                                                                   Selected a random sample of              corrected.
                                                                                   45 Personnel Interface Invalid Reports
                                                                                   beginning on February 14, 2006, at       DFAS Pensacola
                                                                                   DFAS Charleston.                         Of the 45 Personnel Interface
                                                                                                                            Invalid Reports selected for review,
                                                                                                                            1 report could not be located. Of
                                                                                                                            the 44 Personnel Interface Invalid
                                                                                                                            Reports inspected, 25 reports were
                                                                                                                            annotated; however, sufficient
                                                                                                                            detail did not exist to determine
                                                                                                                            whether all errors within the report
                                                                                                                            were resolved.




                                                                         50
No.   Control Objective   Control Activities                         Tests Performed                         Results of Testing

                                                                                                             In addition, 19 of the 44 Personnel
                                                                                                             Interface Invalid Reports inspected
                                                                                                             were annotated in Microsoft Word,
                                                                                                             but did not include the annotator’s
                                                                                                             signature or date of annotation.
                                                                                                             DFAS Charleston
                                                                                                             Personnel Interface Invalid Reports
                                                                                                             were neither annotated, nor
                                                                                                             available for review July 1, 2005,
                                                                                                             through February 13, 2006.
                                                                                                             Of the 45 Personnel Interface
                                                                                                             Invalid Reports selected for review,
                                                                                                             3 reports could not be provided.
                                                                                                             None of the 42 Personnel Interface
                                                                                                             Invalid Reports inspected included
                                                                                                             a signature, date, and annotations
                                                                                                             indicating how the errors were
                                                                                                             corrected.

                          The data processing control group          Inquired with appropriate personnel     No relevant exceptions noted.
                          maintains a schedule by application        and inspected schedules used by the
                          that shows when outputs should be          data processing group to confirm that
                          completed, when they need to be            they:
                          distributed, who the recipients are, and
                          the number of copies needed; reviews       1) maintain a schedule by application
                          output products for general                that shows when outputs need to be
                          acceptability; and reconciles control      completed, when they need to be
                          information to determine                   distributed, who the recipients are,
                          completeness of processing.                and the number of copies needed;
                                                                     2) review output products for general
                                                                     acceptability; and
                                                                     3) reconcile control information to
                                                                     determine completeness of
                                                                     processing.

                          The system provides an audit trail of      Inquired with appropriate personnel     No relevant exceptions noted.
                          all transactions processed, transaction    and inspected audit trails to confirm
                          errors, error descriptions, and error      that payroll technicians captured,
                          correction procedures. Inquire             reported, investigated, and corrected

                                                          51
No.   Control Objective               Control Activities                         Tests Performed                            Results of Testing

                                      whether audit trails are reviewed by       erroneous transactions and those
                                      supervisory personnel. Inquire             transactions were reviewed by
                                      whether payroll technicians capture,       supervisory personnel.
                                      report, investigate, and correct
                                      erroneous data.

                                      For interfacing systems, record counts     Inquired with appropriate personnel        No relevant exceptions noted.
                                      are accumulated and compared to            and inspected interface files to
                                      footer control totals to help determine    confirm that record counts match
                                      the completeness of interface              control totals in the footer and out-of-
                                      processing. Out-of-balance conditions      balance conditions were reported,
                                      are reported, corrected, and re-entered.   corrected, and re-entered.

                                      Batch transactions without pre-            Observed the batch process to confirm      No relevant exceptions noted.
                                      assigned serial numbers are                that transactions without pre-assigned
                                      automatically assigned a unique            serial numbers were automatically
                                      sequence number which is used by the       assigned a unique sequence number.
                                      computer for ensuring that all
                                      transactions are processed.

12    Controls provide reasonable     Policies and procedures are                Inquired with appropriate personnel        No relevant exceptions noted.
      assurance that personnel        documented to describe how                 and read policies and procedures to
      payroll records and other       personnel payroll records and other        confirm that personnel payroll records
      sensitive information is        sensitive information is maintained        and other sensitive information is
      maintained and disposed of in   and disposed of in accordance with         maintained and disposed of in
      accordance with Government-     Government-wide and agency specific        accordance with Government-wide
      wide and agency specific        guidelines.                                and agency specific guidelines.
      guidelines.
                                      All documents and storage media are        Inquired with appropriate personnel        No relevant exceptions noted.
                                      stored in physically and                   and observed storage processes to
                                      environmentally secure containers.         confirm documents and storage media
                                                                                 are properly stored in environmentally
                                                                                 secure containers.

                                      All visitors to the payroll offices must   Inquired with appropriate personnel        No relevant exceptions noted.
                                      sign-in and out with the authorized        and inspected visitor logs at the
                                      security personnel.                        payroll offices to confirm that visitors
                                                                                 signed in and out with the authorized
                                                                                 security personnel.



                                                                       52
No.   Control Objective   Control Activities                       Tests Performed                       Results of Testing


                          All terminals and payroll records are    Inquired with appropriate personnel   No relevant exceptions noted.
                          located in physically secured            and observed the terminal rooms to
                          locations.                               confirm the rooms are physically
                                                                   secure.

                          Users dispose of personnel and payroll   Inquired with appropriate personnel   No relevant exceptions noted.
                          records in accordance with               and observed destruction bins to
                          Government-wide and agency-specific      confirm that payroll records are
                          guidelines.                              disposed of in accordance with
                                                                   Government-wide and agency-specific
                                                                   guidelines.




                                                          53
General Computer Control Objectives, Control Activities, Tests Performed, and Results of Testing


No.       Control Objectives                 Control Activities                     Tests Performed                           Results of Testing

          Enterprise-Wide Security
          Program Planning

          Risks are periodically assessed.   DECC SMC Mechanicsburg and             DISA                                      DISA FSO
1                                            DFAS TSOPE
                                                                                    Inquired of the Information System        An SRR was not completed
                                             DoD and DFAS policy direct an annual   Security Officer and related security     with in the last 3 years for the
                                             IA review. Review appropriate          personnel how often the risk              LPAR where the DCPS
                                             documentation to ensure that these     assessment process occurs.                application was housed.
                                             processes are completed.
                                                                                    Inspected the latest Risk Assessment
                                                                                    that was included with the SSAA to
                                                                                    confirm that risks are periodically
                                                                                    assessed.
                                                                                    Inquired of appropriate personnel about
                                                                                    the SRR process and determined how
                                                                                    often SRRs occur and if deficiencies
                                                                                    and corrective actions are tracked.
                                                                                    Selected a sample of SRRs performed
                                                                                    and inspected the Vulnerability
                                                                                    Management System (VMS) reports to
                                                                                    confirm that findings identified by the
                                                                                    SRR process have been addressed.
                                                                                    Requested the following documents:
                                                                                    Facility Risk Assessment, System
                                                                                    Administrator (SA) Report, DCPS
                                                                                    Local Exemptions, DCPS Specific
                                                                                    Audit Server Findings (SRR Report),
                                                                                    and the Automated Information System
                                                                                    Connectivity Process.
                                                                                    DFAS
                                                                                    Inquired of the Information Systems
                                                                                    Security Officer and related security
                                                                                    personnel how often the risk
                                                                                    assessment process occurs.




                                                                        54
No.   Control Objectives                  Control Activities                        Tests Performed                             Results of Testing
                                                                                    Inspected the lasted Risk Assessment
                                                                                    that was included with the SSAA to
                                                                                    confirm that risks are periodically
                                                                                    assessed.
                                                                                    Determined what other internal
                                                                                    processes (if any) DFAS performs to
                                                                                    assess risks

2     A security plan is documented,      DFAS TSOPE                                DFAS                                        No relevant exceptions noted.
      approved, and kept current.
                                          DoD and DFAS policy direct an annual      Inspected the DCPS SSAA to confirm
                                          IA review. Review appropriate             it has been documented, approved by
                                          documentation to ensure that these        management, and kept current.
                                          processes are accomplished.
                                                                                    Inspected DCPS Systems Security
                                                                                    Policy, Security Requirements, and
                                                                                    Certification Test and Evaluation Plan
                                                                                    and Procedures to confirm that each
                                                                                    has been updated.

3     A security management structure     DECC SMC Mechanicsburg                    DISA                                        No relevant exceptions noted.
      has been established, and
      information security                The DECC SMC Mechanicsburg                Confirmed through inquiry that a
      responsibilities are assigned,      SSAA includes Appendix J, “System         management structure had been
      clearly defined, and in place for   Rules of Behavior,” which describes       established.
      all personnel.                      IA operations of the DoD information
                                          system and clearly delineates IA          Obtained and inspected the security
                                          responsibilities and expected behaviors   management organization chart.
                                          of all personnel.                         Requested one position description for
                                                                                    each function listed on the organization
                                                                                    chart to confirm that all positions were
                                                                                    established in writing.
                                                                                    Inspected the SSAA for the security
                                                                                    management structure. Confirmed that
                                                                                    each position function is outlined in the
                                                                                    SSAA.
                                                                                    Inspected the SSAA for security
                                                                                    management responsibilities.
                                                                                    Confirmed that each position is
                                                                                    outlined in the SSAA and is filled and
                                                                                    that personnel understand their
                                                                                    responsibilities.


                                                                       55
No.   Control Objectives              Control Activities                           Tests Performed                              Results of Testing
                                                                                   Inspected signed rules of behavior
                                                                                   statements for the DISA personnel with
                                                                                   access to DCPS and the underlying
                                                                                   operating system.

4     Owners and users are aware of   DECC SMC Mechanicsburg                       DISA                                         No relevant exceptions noted.
      security policies.
                                      Ongoing security awareness                   Inspected the Security Awareness
                                      curriculum includes: New Employee            Training materials.
                                      Security Briefing; Annual Security
                                      Briefing; IA Awareness Training;             Selected a random sample of
                                      Courier Briefing; SF 312 Non-                employees and inspected their training
                                      Disclosure Briefing; Antiterrorism           files to confirm the completion of
                                      Force Protection Briefing; and SA            necessary security training and that
                                      Training.                                    training has been signed off by a
                                                                                   supervisor.
                                      A Security page on Command Intranet
                                      site has been established.                   Inspected the training sign-in sheets to
                                                                                   confirm that employees had attended
                                      DFAS TSOPE                                   annual training.
                                      Ongoing security awareness programs          Obtained evidence that management
                                      that include initial training and periodic   has active security awareness programs
                                      refresher training have been                 in place (that is electronic mail files or
                                      established.                                 other policy distribution mechanisms)
                                                                                   that proactively emphasized the
                                                                                   security policies to data owners and
                                                                                   users.
                                                                                   DFAS
                                                                                   Inspected the Security Awareness
                                                                                   Training materials.
                                                                                   Obtained a list of employees who have
                                                                                   access to DCPS.
                                                                                   Selected a random sample of
                                                                                   employees who have DCPS access and
                                                                                   inspected their training files to confirm
                                                                                   the completion of necessary security
                                                                                   training and that training has been
                                                                                   signed off by a supervisor.
                                                                                   Inspected the training sign-in sheets to
                                                                                   confirm that employees had attended
                                                                                   annual training.

                                                                     56
No.   Control Objectives                   Control Activities                    Tests Performed                              Results of Testing
                                                                                 Obtained evidence that management
                                                                                 has active security awareness programs
                                                                                 in place (that is electronic mail files or
                                                                                 other policy distribution mechanisms)
                                                                                 that proactively emphasized the
                                                                                 security policies to data owners and
                                                                                 users.

5     An incident response capability      DECC SMC Mechanicsburg                DISA                                         No relevant exceptions noted.
      has been implemented.
                                           DISA Policy Letter 05-04, “Computer   Confirmed through inspection that the
                                           Security Incident Handling and        incident plan detailed in the SSAA has
                                           Reporting,” May 4, 2005, has been     been implemented.
                                           implemented.
                                                                                 Obtained a list of all incidents that
                                                                                 occurred during the audit period.
                                                                                 Selected a random sample of incidents
                                                                                 to confirm that the incident response
                                                                                 plan was being followed.

6     Hiring, transfer, termination, and   DECC SMC Mechanicsburg                DISA                                         DISA DECC SMC
      performance policies address                                                                                            Mechanicsburg
      security.                            Personnel and Industrial Security     Inspected the hiring, transfer,
                                           Program(s) are implemented in         termination, and performance policies        Of the 23 Personnel Out-
                                           accordance with DoD Directive         to confirm they are documented and           Processing Forms reviewed,
                                           5200.2-R, “DoD Personnel Security     address security.                            1 form did not include a
                                           Program,” April 9, 1999, DoD                                                       signature and date indicating
                                           Instruction 8500.2, “Information      Confirmed through inquiry that               that access to the mainframe
                                           Assurance Implementation,”            debriefs were conducted when                 was removed.
                                           February 6, 2003, and the Computing   employees were terminated and that a
                                           Services Security Handbook,           DISA Form 70 is used to note the             Of the 23 Personnel Out-
                                           February 27, 2006.                    collection of DISA property.                 Processing Forms reviewed,
                                                                                                                              1 form included appropriate
                                                                                 Confirmed through observation that an        approval to remove access to the
                                                                                 e-mail was sent to the SA to request         mainframe; however, the form
                                                                                 that system access be removed for a          was not dated.
                                                                                 terminated employee.




                                                                      57
No.   Control Objectives                 Control Activities                           Tests Performed                            Results of Testing
                                                                                                                                 Of the 23 Personnel Out-
                                                                                                                                 Processing Forms reviewed,
                                                                                                                                 2 forms indicated mainframe
                                                                                                                                 system access was removed
                                                                                                                                 after the employees left DECC
                                                                                                                                 SMC Mechanicsburg. As a
                                                                                                                                 mitigating circumstance, all the
                                                                                                                                 users listed on these forms did
                                                                                                                                 not have access to DCPS.

7     A training program is              DECC SMC Mechanicsburg                       DISA                                       DECC SMC Mechanicsburg
      implemented to provide
      assurance that employees have      A robust Security Awareness                  Confirmed through inquiry that a           A structured functional training
      adequate training and expertise.   curriculum that includes: New                training program had been established.     program had not been
                                         Employee Security Briefing, Annual                                                      established at DECC SMC
                                         Security Briefing, information               Requested documentation to confirm         Mechanicsburg for all
                                         assurance Awareness Training, Courier        the existence of this training program.    Government personnel and
                                         Briefing, SF 312 Non-Disclosure              If training is conducted in-house,         contractors with access to the
                                         Briefing, Antiterrorism Force                inspected training materials to confirm    DCPS mainframe. In addition,
                                         Protection Briefing, and SA training         that they provided personnel with          a process did not exist to
                                         has been implemented.                        adequate training and expertise.           independently verify that
                                                                                                                                 personnel had completed
                                         DFAS TSOPE                                   Selected a random sample of training       training and submitted training
                                         Ongoing security awareness programs          records for employees who had access       completion certificates.
                                         that include initial training and periodic   to DCPS. Inspected the training            However, DECC SMC
                                         refresher training is implemented.           records to ensure functional job           Mechanicsburg has a process for
                                                                                      training was occurring.                    users to obtain training.
                                         Additionally, the DCPS SSAA
                                         includes Appendix J, “System Rules of        DFAS
                                         Behavior,” which describes the IA            Confirmed through inquiry that a
                                         operations of the DoD information            training program has been established.
                                         system and clearly delineates IA
                                         responsibilities and expected behavior       Requested documentation to confirm
                                         of all personnel.                            the existence of this training program.
                                                                                      If training is conducted in-house
                                                                                      inspected training materials to confirm
                                                                                      that they provided personnel with
                                                                                      adequate training and expertise and that
                                                                                      they are up to date.




                                                                        58
No.   Control Objectives                   Control Activities                       Tests Performed                            Results of Testing
                                                                                    Selected a random sample of
                                                                                    employees who had access to DCPS.
                                                                                    Inspected the training records to ensure
                                                                                    that functional job training was
                                                                                    occurring.

8     Management periodically              DECC SMC Mechanicsburg                   DISA                                       DISA FSO
      assesses the appropriateness of
      security policies and compliance     The Director’s Policy Letters and        Interviewed the Security Manager to        An SRR was not completed
      with them.                           standard operating procedures are        obtain an understanding of how             within the last 3 years for the
                                           reviewed and updated. An SRR is          management assessed appropriateness        LPAR where the DCPS
                                           conducted at least once every 3 years.   of and compliance with security            application was housed.
                                                                                    policies.
                                                                                    Inspected the DCPS Security
                                                                                    Requirements and Information Systems
                                                                                    Security Policy Certification Test and
                                                                                    Evaluation Procedures to confirm that
                                                                                    an annual IA review was conducted
                                                                                    and that comprehensive vulnerability
                                                                                    management was in place.

9     Management ensures that              DECC SMC Mechanicsburg                   DISA                                       DISA FSO
      corrective actions are effectively
      implemented.                         The VMS is used to track findings        Inquired of appropriate personnel about    An SRR was not completed
                                           identified during the SRR process.       the SRR process to confirm that            within the last 3 years for the
                                           DECC SMC Mechanicsburg                   corrective actions are effectively         LPAR where the DCPS
                                           management is responsible for tracking   implemented for identified SRR             application was housed.
                                           and closing all findings that resulted   findings.
                                           from the SRR process.
                                                                                    Selected a random sample of SRRs and
                                           DFAS TSOPE                               inspected the VMS reports to confirm
                                                                                    that findings identified by the SRR
                                           Management tracks prior audit reports    process have been addressed.
                                           and confirms that observations are
                                           corrected in a timely manner.            Requested prior audit reports or
                                                                                    reviews and determined if remediation
                                                                                    has occurred for the findings and
                                                                                    recommendations contained within
                                                                                    those reports.




                                                                        59
No.   Control Objectives                 Control Activities                          Tests Performed                            Results of Testing
                                                                                     DFAS
                                                                                     Requested prior audit reports or
                                                                                     reviews and determined if remediation
                                                                                     has occurred for the findings and
                                                                                     recommendations presented within
                                                                                     those reports.

10    A comprehensive vulnerability      DECC SMC Mechanicsburg                      DISA                                       DISA FSO
      management process that
      includes the systematic            Vulnerabilities are tracked in the VMS      Inspected the vulnerability                An SRR was not completed
      identification and mitigation of   database. Prior to connecting to the        management policy and documentation        within the last 3 years for the
      software and hardware              network, the SA must run a VS08             to confirm that the process includes       LPAR where the DCPS
      vulnerabilities is in place.       report detailing IA Vulnerability           systematic identification and mitigation   application was housed.
                                         Management notices for the asset's          of software and hardware
                                         operating system. All IA Vulnerability      vulnerabilities.
                                         Management notices must be
                                         mitigated, and applicable patches           Inspected a random sample of
                                         loaded prior to connecting the asset to     vulnerability assessments to confirm
                                         the network. Once all checklists have       that vulnerabilities were identified and
                                         been applied from the STIG and the          resolved.
                                         vulnerability alerts have been installed,   Obtained the VMS reports for the audit
                                         a SRR and an information security scan      period for DCPS and confirmed
                                         will be conducted on the operating          vulnerabilities were tracked and
                                         system. Security assessments that           resolved in a timely manner.
                                         require a scan will use the Internet
                                         Security Scanner and the FSO Full
                                         Scan Policy. The scan will be
                                         conducted using a direct connection
                                         from the system running Internet
                                         Security Scanner to the system being
                                         assessed or the site is authorized to
                                         connect the asset to an isolated network
                                         during the Internet security scan. Each
                                         site will place their self-assessment in
                                         the Security Readiness Review
                                         Database. If the systems have a
                                         database, web server, or any other
                                         software that has a STIG, they must go
                                         through a FSO SRR and the results put
                                         in the self-assessment of the SRR
                                         database.




                                                                       60
No.   Control Objectives                    Control Activities                         Tests Performed                           Results of Testing

11    Changes to the DoD information        DFAS TSOPE                                 DFAS                                      DFAS TSOPE
      systems are assessed for IA and
      accreditation impact prior to         All changes made are captured in the       Inspected evidence that management        The configuration management
      implementation.                       Change Management Information              assesses if a change is IA compliant      process required only program
                                            System. Information for each change        and if the change impacts accreditation   code changes to be assessed and
                                            record includes the requested time and     before moving the change into the         evaluated for IA impact. Of the
                                            date of implementation, the action to      production environment.                   45 changes reviewed, 24
                                            occur, and justification of the action.                                              changes impacted program
                                                                                                                                 code. Of the 24 changes
                                                                                                                                 impacting program code, 5
                                                                                                                                 changes were not assessed and
                                                                                                                                 evaluated by the IA Officer for
                                                                                                                                 IA impact.

12    A DoD reference document              DECC SMC Mechanicsburg                     DISA                                      No relevant exceptions noted.
      constitutes the primary source for
      security configuration or             DISA has developed and requires            Inspected the DISA Database STIG,
      implementation guidance for the       compliance with the STIGs appropriate      DISA UNIX STIG, and DISA
      deployment of newly acquired          to the operating system, application, or   Instruction Information Systems
      IA and IA-enabled information         hardware.                                  Security Program 630-230-19 to
      technology (IT) products.                                                        confirm that those policies constitute
                                                                                       the primary source configuration or
                                                                                       implementation guidance for the
                                                                                       deployment of newly acquired IA and
                                                                                       IA-enabled products.

      Access Controls

13    Application owners have               DFAS TSOPE                                 DFAS                                      No relevant exceptions noted.
      determined classification of
      resources, and related criteria for   Management has classified DCPS             Inspected the DCPS SSAA and
      access administration have been       according to appropriate MAC level         confirmed that a MAC level had been
      established.                          standards.                                 assigned to DCPS.
                                                                                       Inquired with data owners and
                                                                                       confirmed that a MAC level had been
                                                                                       assigned to DCPS.




                                                                          61
No.   Control Objectives                   Control Activities                      Tests Performed                           Results of Testing

14    Resource owners have a process       DFAS TSOPE                              DFAS                                      No relevant exceptions noted.
      in place to identify users and all
      user access is authorized.           The SAAR form is used to identify       Requested a complete DCPS user list.
                                           authorized users and control their
                                           access to DCPS.                         Selected a random sample of 45 user
                                                                                   forms from the list. Inspected the user
                                                                                   SAAR forms for existence and
                                                                                   management’s approval.
                                                                                   Observed the application to confirm
                                                                                   that users possessed valid user
                                                                                   identification and a password to gain
                                                                                   access to the system.
                                                                                   Interviewed the system owner (DFAS)
                                                                                   and inspected supporting
                                                                                   documentation to confirm that
                                                                                   unauthorized access to the system is
                                                                                   removed in a timely manner.
                                                                                   Interviewed Security Managers and
                                                                                   confirmed that Security Managers
                                                                                   provided appropriate supporting
                                                                                   documentation.
                                                                                   Obtained a representative sample of
                                                                                   user profile changes and activity logs
                                                                                   and confirmed that management
                                                                                   reviewed the changes and logs.
                                                                                   Obtained a list of recently terminated
                                                                                   employees from the Human Resources
                                                                                   Department. Selected a representative
                                                                                   sample of terminated employees and
                                                                                   confirmed that system access had been
                                                                                   promptly terminated.

15    Emergency and temporary access       DECC SMC Mechanicsburg                  DISA                                      No relevant exceptions noted.
      authorization is controlled.
                                           Emergency and temporary access          Inspected the emergency and
                                           authorization is controlled in          temporary access policy.
                                           accordance with DoD 5200.1-R, DoD
                                           5200.2-R, DoD Directive 8500.1, DoD
                                           Instruction 8500.2, and the Computing
                                           Services Security Handbook.


                                                                       62
No.   Control Objectives               Control Activities                        Tests Performed                             Results of Testing
                                                                                 Selected a random sample of
                                                                                 emergency and temporary access
                                                                                 requests to confirm that:
                                                                                     •    the authorization was
                                                                                          approved and that access was
                                                                                          closed in a timely manner.
                                                                                     •    the emergency and temporary
                                                                                          access list was periodically
                                                                                          reviewed.
                                                                                     •    all temporary access
                                                                                          authorizations were
                                                                                          established for least privileged
                                                                                          need-to-know access.

16    Owners determine disposition     DFAS TSOPE                                DFAS                                        DFAS SMO
      and sharing of data.
                                       Policies and procedures that govern the   Inspected documents authorizing file        Of the 109 systems that
                                       sharing of data are documented in the     sharing and file sharing agreements and     interface with DCPS, 79 did not
                                       SSAA.                                     confirmed that the owners approve the       have a documented
                                                                                 sharing of data. In many cases those        memorandum of agreement in
                                                                                 documents are called memorandums of         place.
                                                                                 agreement or Service-Level
                                                                                 agreements.
                                                                                 Inspected the DCPS SSAA and
                                                                                 confirmed that a MAC level had been
                                                                                 assigned to DCPS.
                                                                                 Inquired with data owners (DFAS) and
                                                                                 confirmed that a MAC level had been
                                                                                 assigned to DCPS.

17    Adequate physical security       DECC SMC Mechanicsburg                    DISA                                        No relevant exceptions noted.
      controls have been implemented
      that are commensurate with the   All DISA facilities at DECC SMC           Observed and documented the physical
      risks of physical damage or      Mechanicsburg are locked at all times.    safeguards in place and confirmed that
      access.                          Access is restricted using proximity      safeguards are established to mitigate
                                       cards with personal identification        the risk of physical damage or access.
                                       number technology, which are
                                       controlled and issued by the Security     Observed that facility penetration
                                       Manager.                                  testing processes are in place to include
                                                                                 periodic, unannounced attempts to
                                                                                 penetrate key computing facilities. In
                                                                                 addition, we observed that every

                                                                    63
No.   Control Objectives         Control Activities                        Tests Performed                          Results of Testing
                                 The Naval Inventory Control Point         physical access point that displays
                                 conducts periodic, unannounced            sensitive information or unclassified
                                 penetration testing to confirm that       information that had not been cleared
                                 physical security is adequate.            for release was controlled during
                                                                           business hours and guarded or locked
                                 The DECC SMC Mechanicsburg                during non-business hours.
                                 SSAA requires the Security Office to
                                 perform physical security inspections.

18    Visitors are controlled.   DECC SMC Mechanicsburg                    DISA                                     DECC SMC Mechanicsburg
                                 Visitor access is controlled in           Inspected visitor access policies and    Of the 45 daily visitor logs
                                 accordance with DoD 5200.2-R, DoD         procedures to confirm those policies     reviewed, 1 log did not include
                                 5200.1-R, and the Computing Services      are documented.                          completed information for each
                                 Security Handbook. DECC SMC                                                        visitor that entered DECC SMC
                                 Mechanicsburg uses access control         Observed the visitor sign-in and sign-   Mechanicsburg that day. As a
                                 databases, proximity cards with           out process.                             mitigating circumstance, the
                                 personal identification number            Confirmed through inquiry that all       visitor was signed out by DECC
                                 technology, vetted badge exchange,        visitors are escorted.                   SMC Mechanicsburg personnel,
                                 visitor logs, and visit authorization                                              but the time the visitor left was
                                 Requests.                                 Confirmed through inquiry and            not completed in the log.
                                                                           observation that visitor access to DoD
                                 DFAS TSOPE                                information was determined by both its   DFAS TSOPE
                                 All visitors must sign in and sign out    classification and user need-to-know.    Of the 45 daily visitor logs
                                 with the guard on duty.                   DFAS                                     selected for review, 11 logs
                                                                                                                    could not be located. Of the 34
                                 The DCPS SSAA requires all non-           Inspected visitor access policies and    logs reviewed, 12 logs did not
                                 cleared personnel to be escorted at all   procedures to confirm that those         include completed information
                                 times while inside the building.          policies are documented.                 for each visitor that entered
                                                                           Observed the visitor check-in and        DFAS TSOPE on those days.
                                                                           check-out process.                       As a mitigating circumstance,
                                                                                                                    the facility is protected by
                                                                           Confirmed through inquiry that all       access-control locks and all
                                                                           visitors are escorted.                   visitors must be escorted by
                                                                                                                    DFAS employees.
                                                                           Confirmed through inquiry and
                                                                           observation that visitor access to DoD
                                                                           information was determined by both its
                                                                           classification and user need-to-know.




                                                               64
No.   Control Objectives                 Control Activities                      Tests Performed                           Results of Testing

19    Adequate logical access controls   DFAS TSOPE                              DFAS                                      DFAS TSOPE
      have been implemented at the
      application layer.                 User identification and passwords are   Observed that each user account was       The current version of ACF2
                                         configured according to DoD             assigned a security profile that          allowed for password character
                                         standards.                              restricted access by module, program,     complexity as required by DoD
                                                                                 unit identification code, and hand        Instruction 8500.2. However,
                                                                                 receipt.                                  DCPS was not configured to use
                                                                                                                           the complex characters and,
                                                                                 Requested a complete DCPS user list.      therefore, was not in compliance
                                                                                 Selected a random sample of DCPS          with DoD Instruction 8500.2.
                                                                                 users from the list and inspected their   As a mitigating circumstance,
                                                                                 SAAR forms to confirm that the forms      DCPS is still subject to
                                                                                 existed and were approved by              password controls that included
                                                                                 management.                               periodic changing and minimum
                                                                                 Inquired with DFAS personnel to           character lengths.
                                                                                 confirm that users possessed valid user   In addition, the password
                                                                                 identification and a password to gain     configuration requirements
                                                                                 access to the system.                     cannot be changed unless DFAS
                                                                                 Interviewed the system owner (DFAS)       requests complex password
                                                                                 and inspected supporting                  configuration.
                                                                                 documentation to confirm that
                                                                                 unauthorized access to the system is
                                                                                 removed in a timely manner.
                                                                                 Interviewed Security Managers and
                                                                                 confirmed that Security Managers
                                                                                 provided appropriate supporting
                                                                                 documentation.
                                                                                 Confirmed through inquiry that profile
                                                                                 changes are not recorded in activity
                                                                                 logs. All profile changes are
                                                                                 completed on the SAAR forms, and
                                                                                 this form requires management’s
                                                                                 approval.
                                                                                 Obtained a list of recently terminated
                                                                                 employees from the Human Resources
                                                                                 Department. Selected a representative
                                                                                 sample of terminated employees and
                                                                                 confirmed that system access had been
                                                                                 promptly terminated.



                                                                      65
No.   Control Objectives                   Control Activities                       Tests Performed                            Results of Testing

20    Passwords, tokens, or other          DECC SMC Mechanicsburg and               DISA                                       DFAS TSOPE
      devices are used to identify and     DFAS TSOPE
      authenticate users.                                                           Confirmed through inquiry and              The current version of ACF2
                                           Multiple layers of access controls are   observation that passwords are used to     allowed for password character
                                           used including: common access card       authenticate users.                        complexity as required by DoD
                                           and personal identification number,                                                 Instruction 8500.2. However,
                                           DCPS user identification and             Inspected system parameters to ensure      DCPS was not configured to use
                                           password, and a Regional Support         that the system requires user              the complex characters and,
                                           Activity SecurID for Database            identification and a password.             therefore, was not in compliance
                                           Administration, Configuration            Inspected the Security Account             with DoD Instruction 8500.2.
                                           Management, Security, and Technical      Creation Guide to confirm that             As a mitigating circumstance,
                                           Support.                                 authentication devices were in             DCPS is still subject to
                                                                                    compliance with DoD standards.             password controls that included
                                                                                                                               periodic changing and minimum
                                                                                    DFAS                                       character lengths.
                                                                                    Observed DCPS login procedures to          In addition, the password
                                                                                    confirm that users needed valid user       configuration requirements
                                                                                    identification and a password to gain      cannot be changed unless DFAS
                                                                                    access to the system.                      requests complex password
                                                                                    Inspected system parameters to ensure      configuration.
                                                                                    that the system requires user
                                                                                    identification and a password.

21    Access paths are identified as       DECC SMC Mechanicsburg                   DISA                                       No relevant exceptions noted.
      part of a risk analysis and
      documented in an access path         Access paths are identified as part of   Confirmed through inquiry that user
      diagram.                             the DECC SMC Mechanicsburg               management controls, firewalls,
                                           enclave SSAA and documented in the       intrusion detection systems (IDS), and
                                           network diagram within the SSAA.         authentications were used to control
                                                                                    network access.
                                           Firewalls and routers are used to
                                           restrict access within the network.      Obtained and inspected the network
                                                                                    diagrams for DECC SMC
                                                                                    Mechanicsburg to confirm that access
                                                                                    paths were documented and monitored
                                                                                    by IDSs.

22    Access is restricted to data files   DECC SMC Mechanicsburg                   DISA                                       DECC SMC Mechanicsburg
      and software programs.
                                           The System Support Office, a unit        Confirmed through inquiry and              Of the 45 SAAR forms
                                           independent of DECC SMC                  inspection of a list of the root access    reviewed, 4 forms did not
                                           Mechanicsburg operations, is             users for the DCPS servers that the        include justification for granting
                                           responsible for maintaining the system   access restrictions had been established   access to DCPS. In addition, 1


                                                                         66
No.   Control Objectives               Control Activities                         Tests Performed                             Results of Testing
                                       libraries. Access to system libraries is   for data files and software programs.       of the 45 SAAR forms reviewed
                                       restricted to authorized individuals.                                                  did not indicate the organization
                                                                                  Inspected the access logs and inquired      requesting access for the user.
                                                                                  with management whether access logs
                                                                                  were reviewed for unauthorized access
                                                                                  and whether system libraries were
                                                                                  managed and maintained to protect
                                                                                  privileged programs.
                                                                                  Inspected a random sample of SAAR
                                                                                  forms to confirm that each form
                                                                                  includes the user’s justification for
                                                                                  access, security clearance level, and
                                                                                  approval from management.

23    Access settings have been        DECC SMC Mechanicsburg                     DISA                                        DECC SMC Mechanicsburg
      implemented in accordance with
      the access authorizations        Access settings have been implemented      Inspected a random sample of                Of the 45 SAAR forms
      established by the resource      in accordance with the access              45 SAAR forms to confirm that each          reviewed, 4 forms did not
      owners.                          authorization established by signature     form includes the user’s justification      include justification for granting
                                       authority of the resource owner on the     for access, security clearance level, and   access to DCPS. In addition, 1
                                       SAAR form and in accordance with           approval from management.                   of the 45 SAAR forms reviewed
                                       DoD Directive 8500.1, DoD                                                              did not indicate the organization
                                       Instruction 8500.2, and DISA STIGs.        DFAS                                        requesting access for the user.
                                       DFAS TSOPE                                 Observed that each user account was         DFAS TSOPE
                                                                                  assigned a security profile that
                                       The Technical Support Office assigns       restricted access by module or              DFAS TSOPE Database
                                       security profiles to each user’s           program.                                    Administrators had unrestricted
                                       identification based on need-to-know                                                   access and made changes
                                       as demonstrated by an approved SAAR                                                    directly to payroll data recorded
                                       form. TSOPE Database                                                                   in IDMS by using a Data
                                       Administrators also assign security                                                    Manipulation Language Online
                                       profiles to development users through                                                  tool. Although those changes
                                       IDMS, which restricts access to                                                        were recorded in an audit log,
                                       program libraries and databases.                                                       TSOPE management did not
                                                                                                                              review those logs regularly to
                                                                                                                              determine whether the changes
                                                                                                                              were appropriate and had been
                                                                                                                              approved.
                                                                                                                              In addition, three active user
                                                                                                                              accounts on the IDMS user
                                                                                                                              access list were identified;
                                                                                                                              however, those accounts were
                                                                                                                              not associated with personnel

                                                                      67
No.   Control Objectives                Control Activities                         Tests Performed                    Results of Testing
                                                                                                                      who needed that type of access.
                                                                                                                      Specifically, one account was
                                                                                                                      for an individual no longer
                                                                                                                      employed by DFAS TSOPE,
                                                                                                                      one account was a duplicate
                                                                                                                      account, and one account was
                                                                                                                      for an individual that no longer
                                                                                                                      required that level of access.
                                                                                                                      However, as a mitigating
                                                                                                                      circumstance, access to IDMS
                                                                                                                      was controlled through the
                                                                                                                      ACF2 utility. None of the three
                                                                                                                      account holders had access to
                                                                                                                      ACF2.
                                                                                                                      DFAS TSOPE technical support
                                                                                                                      personnel had unrestricted
                                                                                                                      access to flat files that contain
                                                                                                                      DCPS customer data sent for
                                                                                                                      processing or DCPS files that
                                                                                                                      contain payroll, bank account,
                                                                                                                      and other personal information.
                                                                                                                      The technical support personnel
                                                                                                                      had the ability to edit data
                                                                                                                      within flat files. As a mitigating
                                                                                                                      circumstance, audit logs
                                                                                                                      recorded the date, time, and user
                                                                                                                      identification of the person
                                                                                                                      accessing the flat files; however,
                                                                                                                      the audit logs did not record the
                                                                                                                      type of change that had been
                                                                                                                      made.
                                                                                                                      In addition, as part of the
                                                                                                                      payroll process, file balancing
                                                                                                                      would identify any changes to
                                                                                                                      amounts within the flat files.

24    Telecommunications controls are   DECC SMC Mechanicsburg                     DISA                               No relevant exceptions noted.
      properly implemented in
      accordance with granted           Remote access to the Internet is           Confirmed through inquiry and
      authorizations.                   regulated by positive technical controls   inspection of policy that
                                        (including firewalls, routers, and proxy   telecommunications controls were
                                        services and screened subnets, also        implemented.
                                        called demilitarized zones [DMZ]), or

                                                                      68
No.   Control Objectives                   Control Activities                          Tests Performed                           Results of Testing
                                           through systems that are isolated from      Observed the existence of intrusion
                                           all other DoD information systems           detection telecommunication
                                           through physical means.                     monitoring controls.
                                           There is a remote dial-in router            Obtained firewall rules to document
                                           provided for SAs which require Secure       acceptable telecommunication
                                           Shell restrictions. Enterprise Security     protocols and compared them with
                                           Manager is installed on some of these       policy to confirm compliance.
                                           systems.

25    Procedures are in place to clear     DECC SMC Mechanicsburg                      DISA                                      No relevant exceptions noted.
      sensitive information and
      software from computers, disks,      All documents, equipment, and               Requested and inspected the
      and other equipment or media         machine-readable media containing           Disposition of Unclassified DoD
      when they are disposed of or         sensitive data are cleared and sanitized    Computer Hard Drives policy and
      transferred for other use.           before being released. A signature is       confirmed the policy was followed.
                                           required to certify the destruction of
                                           such media.                                 Observed that media was stored in a
                                                                                       secure room before the media was
                                                                                       cleared or destroyed.
                                                                                       Observed the procedures in place to
                                                                                       clear or destroy equipment and media.

26    Audit trails are maintained in the   DECC SMC Mechanicsburg and                  DISA                                      No relevant exceptions noted.
      application, operating system,       DFAS TSOPE
      and database.                                                                    Confirmed through inquiry that audit
                                           A security audit trail that documents       trails were maintained for the
                                           the identity of each person or device       application and operating system.
                                           having access to a system, the time of
                                           that access, user activity, and any         Inspected available audit trails and
                                           actions which attempt to change             determined that the activities of users
                                           established security levels or privileges   with root access were logged. In
                                           for the user is implemented for each        addition, confirmed that failed login
                                           system.                                     attempts were recorded in the audit log
                                                                                       in accordance with DoD 8500.2.
                                                                                       Confirmed through inquiry and
                                                                                       observation that audit trails were
                                                                                       maintained for at least 5 years.
                                                                                       DFAS
                                                                                       Confirmed through inquiry that audit
                                                                                       trails were maintained for the
                                                                                       application.


                                                                          69
No.   Control Objectives                   Control Activities                          Tests Performed                            Results of Testing
                                                                                       Inspected available audit trails and
                                                                                       determined that the activities of users
                                                                                       with root access were logged. In
                                                                                       addition, confirmed that failed login
                                                                                       attempts were recorded in the audit log
                                                                                       in accordance with DoD 8500.2.
                                                                                       Confirmed through inquiry and
                                                                                       observation that audit trails were
                                                                                       maintained for at least 5 years.

27    The contents of audit trails are     DECC SMC Mechanicsburg                      DISA                                       No relevant exceptions noted.
      protected against unauthorized
      access, modification, or deletion.   Contents of audit trails are protected in   Requested policy related to the
                                           accordance with STIGs and the DISA          protection of audit trails.
                                           Computing Services Security
                                           Handbook.                                   Confirmed that policy limits access to
                                                                                       audit trails to individuals with a need-
                                           User authorization for access to various    to-know based on job responsibilities
                                           systems is identified in each               described on the SAAR form.
                                           individual’s new user agreement
                                           (completed when account is created).        Confirmed through inquiry and
                                                                                       observation that audit logs included
                                           DFAS TSOPE                                  activities that might modify, bypass, or
                                                                                       negate safeguards controlled by the
                                           Adheres to DITSCAP requirements for         system. In addition, confirmed that
                                           system access and content, retention,       audit trails were protected against
                                           and protection of audit trails. The most    unauthorized access, modification, or
                                           recent testing of compliance with           deletion.
                                           DITSCAP guidance is contained in the
                                           DCPS SSAA, Appendices H and P.              Observed that only a select or limited
                                                                                       number of individuals (including the
                                                                                       Information Assurance Manager, the
                                                                                       Assistant Information Assurance
                                                                                       Manager, Database Administrator, and
                                                                                       SA) had access to the audit trails.
                                                                                       DFAS
                                                                                       Requested policy related to the
                                                                                       protection of audit trails.
                                                                                       Confirmed that policy limits access to
                                                                                       audit trails to individuals with a need-
                                                                                       to-know based on job responsibilities
                                                                                       described on the SAAR form.


                                                                          70
No.   Control Objectives              Control Activities                       Tests Performed                            Results of Testing
                                                                               Confirmed through inquiry and
                                                                               observation that audit logs included
                                                                               activities that might modify, bypass, or
                                                                               negate safeguards controlled by the
                                                                               system. In addition, confirmed the
                                                                               audit trails were protected against
                                                                               unauthorized access, modification, or
                                                                               deletion.
                                                                               Observed that only a select or limited
                                                                               number of individuals (including the
                                                                               Information System Security Officer
                                                                               and Information Assurance Manager)
                                                                               had access to the audit trails.

28    Tools are available to review   DECC SMC Mechanicsburg                   DISA                                       No relevant exceptions noted.
      audit records and generate
      reports from audit records.     Tools are available for review through   Inquired with security personnel and
                                      System Management Facility and           inspected the audit tools available for
                                      ACF2 reports.                            reviewing audit records.
                                                                               Determined whether a reporting
                                                                               function is available and, if so,
                                                                               identified the types of reports being
                                                                               generated and reviewed.

29    Actual or attempted             DECC SMC Mechanicsburg                   DISA                                       No relevant exceptions noted.
      unauthorized, unusual, or
      sensitive network access is     ACF2 is maintained at DECC SMC           Obtained copies of the policies and
      monitored, and suspicious or    Mechanicsburg and at the payroll         procedures relating to access controls.
      irregular access activity is    offices by various SAs with differing
      investigated, and appropriate   roles (for example, administration or
      action taken.                   user accounts). The logs are centrally   Inquired with the SA to confirm that
                                      reviewed at DECC SMC                     system access (including unauthorized,
                                      Mechanicsburg. Multiple unsuccessful     unusual, or sensitive access) was
                                      login attempts result in the account     monitored.
                                      being locked. If the account is unused
                                      for a specified period, the account is   Inquired with the SA to confirm that
                                      deactivated.                             suspicious or irregular access activity
                                                                               was investigated, and appropriate
                                                                               actions were taken.




                                                                   71
No.   Control Objectives                  Control Activities                           Tests Performed                            Results of Testing
                                                                                       Obtained and inspected evidence
                                                                                       (including audit log reviews and
                                                                                       incident reports) to confirm that
                                                                                       investigations and actions were taking
                                                                                       place.

30    The acquisition, development, or    DECC SMC Mechanicsburg                       DISA                                       No relevant exceptions noted.
      use of mobile code in DoD
      systems meets current guidelines,   Use of mobile code is only permitted         Inspected the DoD systems guidelines,
      standards, and regulations.         after a risk assessment, categorization      standards, and regulations concerning
                                          of the mobile code, and counter              mobile code.
                                          measures have been implemented, and
                                          only when a waiver has been obtained         Inquired with the SA to confirm that
                                          from the responsible Chief Information       the acquisition, development, or use of
                                          Officer’s office.                            mobile code in DoD systems meets
                                                                                       current guidelines, standards, and
                                                                                       regulations.
                                                                                       Inspected the National Information
                                                                                       Assurance Partnership website and
                                                                                       confirmed that the website provided a
                                                                                       list of approved products.

31    All servers, workstations, and      DECC SMC Mechanicsburg                       DISA                                       No relevant exceptions noted.
      mobile computing devices
      implement virus protection that     Anti-virus software is installed on          Observed that all servers, workstations,
      includes a capability for           personal computers, laptops, and             and mobile computing devices
      automatic updates.                  systems under DECC SMC                       implement virus protection that
                                          Mechanicsburg control.                       included a capability for automatic
                                                                                       updates at all DCPS locations.
                                                                                       Obtained print screens as evidence that
                                                                                       virus protection settings were
                                                                                       configured.

32    All Virtual Private Network         DECC SMC Mechanicsburg                       DISA                                       No relevant exceptions noted.
      traffic is visible to the network
      IDS.                                Information security scanner Real            Inquired with the SA to confirm that all
                                          Secure is installed at various points that   Virtual Private Network traffic was
                                          give visibility into the network traffic     visible to the network IDS.
                                          ingressing and egressing the DISA
                                          enclave.                                     Inspected the system network diagram
                                                                                       and inquired of the SA to confirm that
                                                                                       Virtual Private Network traffic was
                                                                                       included on the diagram.


                                                                         72
No.   Control Objectives                  Control Activities                        Tests Performed                           Results of Testing

33    At a minimum, medium-robust         DECC SMC Mechanicsburg                    DISA                                      No relevant exceptions noted.
      commercial off-the-shelf (COTS)
      IA and IA-enabled products are      Appropriate IA products are used to       Inquired with key personnel to confirm
      used to protect sensitive           protect sensitive information when the    that at a minimum, medium-robust
      information when the                information transits public networks or   COTS IA and IA-enabled products
      information transits public         the system handling the information is    were used to protect sensitive
      networks or the system handling     accessible by individuals who are not     information when the information
      the information is accessible by    authorized to access the information on   transits public networks or the system
      individuals who are not             the system.                               handling the information was
      authorized to access the                                                      accessible by individuals who were not
      information on the system.                                                    authorized to access the information on
                                                                                    the system for each of the DCPS
                                                                                    locations.

34    Unless there is an overriding       DECC SMC Mechanicsburg                    DISA                                      DECC SMC Mechanicsburg
      technical or operational problem,
      workstation screen-lock             Workstations are locked systematically    Confirmed with the Network                Screen-lock functionality was
      functionality is applied to each    after a period of inactivity in           Administrator the type of operating       not applied on 2 of
      workstation.                        accordance with DoD                       system personnel used.                    45 workstations inspected at
                                          Instruction 8500.2. A password is                                                   DECC SMC Mechanicsburg.
                                          required to unlock the workstation.       Confirmed through observation that        As a mitigating circumstance,
                                                                                    workstation screen-lock functionality     DECC SMC Mechanicsburg has
                                          DFAS TSOPE                                was applied.                              physical access controls in place
                                          The Desktop Management Initiative         DFAS                                      that limit unauthorized access to
                                          (not associated with TSOPE) controls                                                workstations.
                                          the configuration of all DFAS             Confirmed with the Network
                                          computers, including the operating        Administrator the type of operating
                                          system and the application of             system personnel used.
                                          screen-lock functionality.                Confirmed through observation that
                                                                                    workstation screen-lock functionality
                                                                                    was applied.

35    Instant messaging traffic to and    DECC SMC Mechanicsburg                    DISA                                      No relevant exceptions noted.
      from users that are independently
      configured by end users and that    Use of instant messaging applications     Inquired with personnel to confirm that
      interact with a public service      is not permitted and network personnel    policy prohibits the use of instant
      provider is prohibited within       monitor common firewall and system        messaging.
      DoD information systems.            ports to identify and eliminate the use
                                          of instant messaging applications.        Inquired of network personnel the
                                                                                    methods used to control instant
                                                                                    messaging.




                                                                       73
No.   Control Objectives                   Control Activities                        Tests Performed                           Results of Testing
                                           DFAS TSOPE                                Requested and inspected firewall rules
                                                                                     to confirm instant messaging was
                                           Desktop Management Initiative             blocked.
                                           controls the configuration of computers
                                           so instant messaging programs are not     DFAS
                                           authorized. TSOPE monitors
                                           application usage through an              Inquired with personnel to confirm that
                                           automated software auditing               policy prohibits the use of instant
                                           application that runs regularly when      messaging.
                                           users login to their workstation.         Inquired of network personnel the
                                           Instant messaging programs are            methods used to control instant
                                           identified as part of that auditing       messaging.
                                           process.
                                                                                     Requested and inspected firewall rules
                                                                                     to confirm instant messaging was
                                                                                     blocked.

36    For automated information            DECC SMC Mechanicsburg and                DISA                                      No relevant exceptions noted.
      system applications, a list of all   DFAS TSOPE
      (potential) hosting enclaves is                                                Inspected the DECC SMC
      developed and maintained along       All interconnections of DoD               Mechanicsburg SSAA to confirm the
      with evidence of deployment          information systems are managed           DCPS enclave was identified and
      planning and coordination and        continuously to minimize risk by          documented.
      with the exchange of connection      ensuring that the assurance of one
                                           system is not undermined by               DFAS
      rules and requirements.
                                           vulnerabilities of interconnected         Inspected the Service-Level agreement
                                           systems.                                  between DISA and DFAS to confirm
                                                                                     that deployment planning and
                                                                                     coordination have been considered
                                                                                     along with the exchange of connection
                                                                                     rules and requirements.

37    Group authenticators for             DECC SMC Mechanicsburg and                DISA                                      No relevant exceptions noted.
      application or network access        DFAS TSOPE
      may be used only in conjunction                                                Confirmed through inquiry that
      with an individual authenticator.    Group authenticators are not used for     authenticators for application,
                                           DCPS or network access. Upon initial      networks, or operating systems were
                                           system login, a user’s actions are        not used.
                                           tracked based on the individual’s
                                           unique user account.                      DFAS
                                                                                     Confirmed through inquiry that group
                                                                                     authenticators for applications and
                                                                                     networks were not used.



                                                                        74
No.   Control Objectives                   Control Activities                       Tests Performed                           Results of Testing

38    To help prevent inadvertent          DECC SMC Mechanicsburg                   DISA                                      No relevant exceptions noted.
      disclosure of controlled
      information, all contractors and     Exchange Server Administration           Obtained a listing of contractors’ and
      foreign nationals are identified     includes the specific configuration of   foreign nationals’ e-mail addresses and
      by e-mail addresses and display      e-mail addresses and display names for   display names to confirm that proper
      names.                               contractors and foreign nationals.       identification was present for those
                                                                                    with access to DCPS.

39    Unclassified, sensitive data         DECC SMC Mechanicsburg                   DISA                                      DFAS TSOPE
      transmitted through a
      commercial or wireless network       Encryption data streams are in the       Inquired of security personnel whether    Sensitive but unclassified
      are encrypted using National         process of conforming to standards in    DCPS data were transmitted through a      payroll and personnel data
      Institute of Standards and           the Federal Information Processing       commercial or wireless network.           transmitted within DoD internal
      Technology-certified                 Standards Publication 140-2, “Security                                             networks were not encrypted.
                                           Requirements for Cryptographic           Inquired of security personnel to
      cryptography.                                                                 confirm that National Institute of        In addition, data transmitted
                                           Modules.”
                                                                                    Standards and Technology                  outside DoD internal networks
                                                                                    cryptography was used to protect          are not encrypted unless DFAS
                                                                                    information when the information was      requests data encryption.
                                                                                    transmitted over commercial or
                                                                                    wireless networks.

40    Discretionary access controls are    DECC SMC Mechanicsburg                   DISA                                      DECC SMC Mechanicsburg
      a sufficient IA mechanism for
      connecting DoD information           The DECC SMC Mechanicsburg               Inspected the ACF2 access list of all     Of the 45 SAAR forms
      systems operating at the same        enclave SSAA requires that access to     individuals who had direct access to      reviewed, 4 forms did not
      classification, but with different   all DoD information systems are based    the DCPS system software and selected     include justification for granting
      need-to-know access rules.           on a demonstrated need-to-know and is    a random sample 45 of users with          access to DCPS. In addition, 1
                                           granted in accordance with applicable    direct access.                            of the 45 SAAR forms reviewed
                                           laws and DoD 5200.2-R for                                                          did not indicate the organization
                                           background investigations, special                                                 requesting access for the user.
                                           access, and IT position designations.
                                           An appropriate security clearance and
                                           non-disclosure agreement are also
                                           required for access to classified
                                           information in accordance with DoD
                                           5200.1-R.




                                                                        75
No.   Control Objectives                   Control Activities                         Tests Performed                           Results of Testing

41    Conformance testing that             DECC SMC Mechanicsburg                     DISA                                      DISA FSO
      includes periodic, unannounced,
      in-depth monitoring, and             DECC SMC Mechanicsburg performs            Confirmed through inquiry that            An SRR was not completed
      provides for specific penetration    monthly retina scans to check for any      conformance testing is performed and      within the last 3 years for the
      testing to ensure compliance with    DCPS network vulnerabilities. DCPS         includes periodic, unannounced, in-       LPAR where the DCPS
      all vulnerability mitigation         and its hardware are reviewed for STIG     depth monitoring, and provides for        application was housed.
      procedures is planned, scheduled,    compliance through periodic SRRs that      specific penetration testing to confirm
      and conducted.                       are conducted by the FSO on the DCPS       compliance with all vulnerability
                                           mainframe domain.                          mitigation procedures was planned,
                                                                                      scheduled, and conducted.
                                                                                      Obtained and inspected documentation
                                                                                      produced from this conformance
                                                                                      testing (including information security
                                                                                      scans) as evidence that penetration
                                                                                      testing was completed.

42    All users are warned that they are   DECC SMC Mechanicsburg and                 DISA and DFAS                             No relevant exceptions noted.
      entering a Government                DFAS TSOPE
      information system.                                                             Observed that workstations display a
                                           All DISA networks and platforms            DoD warning banner.
                                           present a message to users upon login,
                                           which warns them that they are
                                           entering a Government information
                                           system, and are provided with
                                           appropriate privacy and security
                                           notices to include statements informing
                                           them that they are subject to
                                           monitoring, recording, and auditing.

43    Information and DoD                  DISA DECC SMC Mechanicsburg                DISA                                      DFAS TSOPE
      information systems that store,
      process, transmit, or display data   Information on DoD systems that store,     Observed and conducted a walk-            Sensitive but unclassified pay
      in any form or format that is not    process, transit, or display data in any   through of the DECC SMC                   and personnel data transmitted
      approved for public release          format that is not approved for public     Mechanicsburg data center, including      within DoD internal networks
      comply with requirements in          release complies with DoD policy.          onsite tape storage areas, to confirm     were not encrypted.
      policy.                                                                         that labels indicating classification
                                           Access to all DoD information systems      level were affixed to all computers and   In addition, data transmitted
                                           is based on a demonstrated need-to-        storage devices.                          outside DoD internal networks
                                           know and is granted in accordance with                                               are not encrypted unless DFAS
                                           applicable laws and DoD 5200.2-R for       Inquired with security personnel to       requests data encryption.
                                           background investigations, special         confirm that information in-transit
                                           access, and IT position designations.      through the network was encrypted.



                                                                         76
No.   Control Objectives                   Control Activities                         Tests Performed                           Results of Testing
      Guidance documents and                                                          Inquired with security personnel to
      information in transit through a                                                confirm the use of a network
      network at the same                                                             monitoring tool.
      classification level, but which
      must be separated for need-to-
      know reasons, are encrypted, at a
      minimum, with National Institute
      of Standards and Technology
      certified cryptography.

44    Connections between DoD              DECC SMC Mechanicsburg                     DISA                                      No relevant exceptions noted.
      enclaves and the Internet or other
      public or commercial-wide area       Perimeter firewalls, routers, and IDSs     Inspected the system architecture to
      networks require a DMZ and           are deployed.                              confirm that connections between DoD
      boundary defense mechanisms                                                     enclaves and the Internet were
                                           DoD information systems regulate           configured with a DMZ and boundary
      (including firewalls and network     access and remove access to the
      IDSs) at the enclave boundary.                                                  defense mechanisms (including
                                           Internet by employing positive             firewalls and network IDSs) at the
                                           technical controls (including proxy        enclave boundary.
                                           services and screened subnets [also
                                           called a DMZ]) that are isolated from      Inspected the system network diagram
                                           all other DoD information systems          and inquired of the SA to confirm that
                                           through physical means.                    a DMZ and other defense mechanisms
                                                                                      are employed.
                                                                                      Observed the existence of firewalls and
                                                                                      IDS devices.

45    Devices that display or output       DECC SMC Mechanicsburg                     DISA and DFAS                             DFAS TSOPE
      classified or sensitive
      information in human-readable        Devices that display or output sensitive   Observed that monitors and printers       Printers at the DFAS TSOPE
      form (monitors and printers) are     information are labeled to indicate        displaying sensitive information were     facility that output sensitive
      positioned to deter unauthorized     whether sensitive information can be       positioned to deter unauthorized          information in human-readable
      individuals from reading the         displayed.                                 individuals from reading the              form were not properly
      information.                                                                    information.                              positioned to deter unauthorized
                                           DFAS TSOPE                                                                           individuals from accessing or
                                           Access to systems containing sensitive                                               reading the information. As a
                                           information display warning banners                                                  mitigating circumstance,
                                           upon login to warn authorized users,                                                 physical controls are in place at
                                           and unauthorized users are denied                                                    the facility restricting access to
                                           access while attempting to login to the                                              the unauthorized personnel.
                                           system.




                                                                         77
No.   Control Objectives                  Control Activities                          Tests Performed                             Results of Testing
                                          Individuals who print sensitive
                                          information in human-readable form
                                          have localized printers. Each user that
                                          prints sensitive data in human-readable
                                          form is accountable for security in
                                          handling that information.

46    Individuals requiring access to     DECC SMC Mechanicsburg                      DISA                                        DECC SMC Mechanicsburg
      sensitive information are
      processed for access                The DECC SMC Mechanicsburg                  Requested, obtained, and inspected the      Of the 45 SAAR forms
      authorization in accordance with    enclave SSAA requires system users to       policies and procedures for gaining         reviewed, 4 forms did not
      DoD personnel security policies.    be subjected to various levels of           access to sensitive information.            include justification for granting
                                          personnel security investigations based                                                 access to DCPS. In addition,
                                          on the level of access or privileges they   Obtained the ACF2 listing of all            one of the 45 SAAR forms
                                          have within the systems. The higher         personnel with access to DCPS.              reviewed did not indicate the
                                          the level of access, the more stringent     Selected a random sample of 45 users        organization requesting access
                                          the required investigation becomes. At      with access to DCPS to inspect their        for the user.
                                          a minimum, all DECC SMC                     SAAR forms to confirm that each
                                          Mechanicsburg employees (military,          SAAR form includes the user’s
                                          civilian, or contractors) will have a       justification for access, security
                                          SECRET security clearance and a             clearance level, and approval from
                                          favorably completed National Agency         management.
                                          check.

47    DoD information systems             DECC SMC Mechanicsburg                      DISA                                        No relevant exceptions noted.
      comply with DoD ports,
      protocols, and services guidance.   DCPS-related ports, protocols, and          Inquired of DECC SMC
                                          services are configured according to        Mechanicsburg personnel and observed
                                          DoD guidance.                               network monitoring to confirm that
                                                                                      DoD information systems comply with
                                                                                      DoD ports, protocols, and services
                                                                                      guidance, including all ports, protocols,
                                                                                      and services whether currently active
                                                                                      or planned for use.
                                                                                      Confirmed that ports, protocols, and
                                                                                      services were identified and registered.
                                                                                      Inspected documentation to support
                                                                                      that DCPS had gone through the DISA
                                                                                      STIG process.




                                                                        78
No.   Control Objectives                 Control Activities                        Tests Performed                            Results of Testing

48    Binary or machine-executable       DISA DECC SMC Mechanicsburg               DISA                                       No relevant exceptions noted.
      public domain software products
      and other software products with   Public domain software products and       Inspected a listing of software products
      limited or no warranty are not     other software products with limited or   and confirmed through inquiry of
                                         no warranty (including freeware or        management that the mainframe
                                         shareware) are only used in DoD           housing DCPS did not have binary or
                                         information systems to meet
      used in DoD information            compelling operational requirements.      machine-executable public domain
      systems.                                                                     software and other software products
                                         Those products are thoroughly assessed    with limited or no warranty installed on
                                         for risk and accepted for use by the      the mainframe.
                                         responsible Designated Approving
                                         Authority.

      Application Software
      Development and Change
      Control

49    A system development life cycle    DFAS TSOPE                                DFAS                                       No relevant exceptions noted.
      methodology has been
      implemented and documented.        A defined configuration management        Inspected the configuration
                                         process is in place at DFAS TSOPE.        management plan to confirm that the
                                         The process is documented in the          plan had been documented.
                                         DCPS SSAA, Appendix S. Included
                                         within the plan are:                      Inquired of DFAS TSOPE personnel to
                                                                                   confirm that a configuration
                                             •   formally documented               management process was implemented
                                                 configuration management          and includes the following:
                                                 roles, responsibilities, and
                                                 procedures, including                 •    formally documented
                                                 management of IA                           configuration management
                                                 information and                            roles, responsibilities, and
                                                 documentation;                             procedures, including
                                                                                            management of IA
                                             •   detailed roles of the CCB,                 information and
                                                 including its roles for                    documentation;
                                                 reviewing and approving
                                                 changes; and                          •    detailed roles of the CCB,
                                                                                            including its roles for
                                                                                            reviewing and approving
                                                                                            changes; and




                                                                      79
No.   Control Objectives                 Control Activities                       Tests Performed                          Results of Testing
                                             •   descriptions of the testing          •   descriptions of the testing
                                                 process that all changes must            process that all changes must
                                                 go through, including the                go through, including the
                                                 migration of the change from             migration of the change from
                                                 the development region to the            the development region to the
                                                 testing region and the testing           testing region and the testing
                                                 region to production                     region to production
                                                 environment.                             environment.

50    Authorizations for software        DFAS TSOPE                               DFAS                                     No relevant exceptions noted.
      modifications are documented
      and maintained. This should also   A Configuration Management Plan is       Requested the list of program code and
      include emergency changes.         implemented for software                 database modifications made to the
                                         modifications contained in the DFAS      DCPS production code library during
                                         TSOPE Business Process Handbook,         the period July 1, 2005, through
                                         updated October 23, 2005.                June 30, 2006.
                                         All modifications go through the         We examined a random sample of
                                         system change request (SCR) process      45 modifications to an approved SCR
                                         and receive proper approval prior to     and confirmed through inspection that
                                         implementation, including emergency      SCR was authorized by the Program
                                         changes made during business hours.      Manager or Software Director. We
                                         Emergency changes that arise during      also tracked each SCR identified above
                                         non-business hours may be                to the Release Authorization Report to
                                         implemented prior to SCR approval;       confirm that it was approved by the
                                         however, the change is run through the   Software Director.
                                         SCR process at the start of the next
                                         business day.

51    Use of public domain and           DFAS TSOPE                               DFAS                                     No relevant exceptions noted.
      personal software is restricted.
                                         Does not allow any use of public         Inspected policy (DCPS SSAA) to
                                         domain or personal software. DCPS is     confirm that personal software is
                                         housed on a DISA mainframe and all       restricted.
                                         utilities necessary are on that
                                         mainframe.                               Requested a listing of approved
                                                                                  software.
                                                                                  Inquired with system personnel to
                                                                                  determine how this requirement was
                                                                                  enforced.




                                                                      80
No.   Control Objectives                    Control Activities                        Tests Performed                           Results of Testing

52    Changes are controlled as             DFAS TSOPE                                DFAS                                      DFAS TSOPE
      programs progress through
      testing to final approval to ensure   Testing changes follows the approved      Using the same sample selected for        Of the 45 SCRs inspected,
      completeness, authorization, and      process outlined in the DFAS TSOPE        control objective No. 50, we confirmed    7 changes did not include
      software quality requirements         Business Process Handbook prior to        that the change followed the              documented test results. Of the
      and validation methods are            implementation.                           appropriate test and migration process    seven changes:
      focused on the minimization of                                                  by inspecting the following documents
                                            A Testing Deficiency Report is issued                                                   •    five were program
      flawed or malformed software.                                                   for completeness, authorization, and
                                            for SCRs with negative test results and   software quality requirements:                     code changes,
      Software that can negatively          the Testing Deficiency Report is routed
                                            to the appropriate individuals. If            •   System Test Plan;                     •    one was an SCR
      impact integrity or availability                                                                                                   addendum, and
                                            necessary, an amendment is issued and
      (for example, buffer overruns) is
                                            progresses through the same approval          •   Detailed System
      specified for all software                                                                                                    •    one was an interest
                                            process as an SCR.                                Specifications; and
      development initiatives.                                                                                                           rate table change.
                                                                                          •   Unit, System, and Acceptance
                                                                                              testing results.
                                                                                      Inquired of DCPS security personnel as
                                                                                      to their roles and responsibilities for
                                                                                      releasing security-related changes
                                                                                      included in DCPS releases.
                                                                                      Observed release notes for all major
                                                                                      DCPS production releases that
                                                                                      occurred July 1, 2005, through June 30,
                                                                                      2006.

53    Distribution and implementation       DFAS TSOPE                                DFAS                                      No relevant exceptions noted.
      of new or revised software is
      controlled.                           Release management staff is               Using the same sample selected for
                                            responsible for the distribution and      control objective No. 50, we confirmed
                                            implementation of new and revised         that the change followed the
                                            software.                                 appropriate distribution process by
                                                                                      inspecting the Release Authorization
                                                                                      Report for completeness and
                                                                                      authorization.

54    Programs are labeled and              DFAS TSOPE                                DFAS                                      No relevant exceptions noted.
      inventoried.
                                            Release management staff is               Using the same sample selected for
                                            responsible for ensuring that all         control objective No. 50, we confirmed
                                            programs are labeled and inventoried      that the changes had been labeled,
                                            within the appropriate library.           assigned an identification number, and
                                                                                      inventoried.


                                                                          81
No.   Control Objectives                 Control Activities                        Tests Performed                           Results of Testing

55    Access to program libraries is     DFAS TSOPE                                DFAS                                      DFAS TSOPE
      restricted to appropriate
      personnel to ensure that the       The SA manages access rights to the       Observed the DCPS Librarian to            DFAS TSOPE Database
      movement of programs and data      program libraries and databases           understand how the development and        Administrators had unrestricted
      among libraries is controlled.     through ACF2. The Database                production libraries are controlled.      access and made changes
                                         Administrator grants access to the                                                  directly to payroll data recorded
                                         appropriate development or production     Inspected the access control lists for    in IDMS by using a Data
                                         environments through IDMS. IDMS           the production and development            Manipulation Language Online
                                         controls the version of the software in   libraries (directories) to confirm that   tool. Although those changes
                                         the development and production            only authorized personnel have access.    were recorded in an audit log,
                                         environments.                                                                       TSOPE management did not
                                                                                                                             review those logs regularly to
                                                                                                                             determine whether the changes
                                                                                                                             were appropriate and approved.
                                                                                                                             In addition, three active user
                                                                                                                             accounts on the IDMS user
                                                                                                                             access list were identified;
                                                                                                                             however, those accounts were
                                                                                                                             not associated with personnel
                                                                                                                             who needed that type of access.
                                                                                                                             Specifically, one account was
                                                                                                                             for an individual no longer
                                                                                                                             employed by DFAS TSOPE,
                                                                                                                             one account was a duplicate
                                                                                                                             account, and one account was
                                                                                                                             for an individual that no longer
                                                                                                                             required that level of access.
                                                                                                                             However, as a mitigating
                                                                                                                             circumstance, access to IDMS
                                                                                                                             was controlled through the
                                                                                                                             ACF2 utility. None of the three
                                                                                                                             account holders had access to
                                                                                                                             ACF2.

56    Acquisition or outsourcing of IT   DFAS TSOPE                                DFAS                                      No relevant exceptions noted.
      services explicitly addresses
      Government, service provider,      The Service-Level agreement between       Inspected the Service-Level agreement
      and end-user IA roles and          DFAS and DECC SMC                         to confirm that the agreement expressly
      responsibilities.                  Mechanicsburg explicitly states the IA    addresses Government, service
                                         roles and responsibilities of the         provider, and end-user IA roles and
                                         customer and service provider.            responsibilities.



                                                                      82
No.   Control Objectives                  Control Activities                        Tests Performed                           Results of Testing
                                          Data are collected to support reporting
                                          and IA management activities
                                          throughout the investment lifecycle.

57    The acquisition of all IA and IA-   DFAS TSOPE                                DFAS                                      No relevant exceptions noted.
      enabled Government off-the-
      shelf IT products is limited to     The System Support Office is              Confirmed through inquiry that DFAS
      products that have been             responsible for reviewing and             verified that products were verified by
      evaluated by NSA or are in          approving all COTS and Government         NSA or conducted an evaluation in
      accordance with NSA-approved        off-the-shelf IT products.                accordance with NSA-approved
      processes.                                                                    processes for all IA-related products.
                                                                                    Inspected the National Information
                                                                                    Assurance Partnership website and
                                                                                    confirmed a list of approved products.

      System Software Controls

58    Access authorizations are           DECC SMC Mechanicsburg                    DISA                                      No relevant exceptions noted.
      appropriately limited.
                                          User accounts are suspended after         Inspected the policies and procedures
                                          30 days of no activity (60 days for       for restricting access to system
                                          TSOPE and payroll offices) and are        software to confirm that they were up-
                                          removed after 90 days. Accounts are       to-date.
                                          issued by local SAs. User access
                                          administration controls are tested in     Obtained the ACF2 access list of all
                                          multiple control objectives, primarily    individuals who had direct access to
                                          in the Access Control section of this     system software and selected a random
                                          report.                                   sample of 45 users with direct access.
                                                                                    For each user selected, confirmed with
                                                                                    key management that those users were
                                                                                    authorized to have this access.

59    Policies and techniques have        DECC SMC Mechanicsburg                    DISA                                      No relevant exceptions noted.
      been implemented for using and
      monitoring use of system            Access to system software is              Inquired with key DECC SMC
      utilities.                          administered based on roles.              Mechanicsburg personnel to confirm
                                                                                    how root and privileged access was
                                                                                    administered.
                                                                                    Obtained the list of individuals with
                                                                                    root and privileged access.
                                                                                    Inquired with management that root
                                                                                    and privileged access was reviewed

                                                                         83
No.   Control Objectives                  Control Activities                         Tests Performed                          Results of Testing
                                                                                     and approved and that the use of those
                                                                                     accounts was logged.
                                                                                     Inspected each audit log from the
                                                                                     DCPS LPAR for the 12-month audit
                                                                                     period to confirm that key personnel
                                                                                     reviewed the logs on a regular basis
                                                                                     and that any issues identified were
                                                                                     documented and researched.
                                                                                     Inspected the policies and procedures
                                                                                     for monitoring system software and
                                                                                     confirmed that they existed and were
                                                                                     current.

60    System software changes are         DECC SMC Mechanicsburg                     DISA                                     DECC SMC Mechanicsburg
      authorized, tested, approved, and
      documented before                   Procedures addressing the testing of       Obtained and inspected the change        Test results were not
      implementation.                     patches, upgrades, and new automated       management policies and procedures       documented prior to September
                                          information system applications are        for system software to confirm that      15, 2005. During that time,
                                          documented. All changes made at            they existed and were current.           DECC SMC Mechanicsburg
                                          DECC SMC Mechanicsburg are                                                          was in the process of developing
                                          captured in the Change Management          Obtained a list of all DCPS system       policy requiring that this
                                          System (Change Management 2000).           software modifications that occurred     documentation be maintained in
                                          Each change record includes the            July 1, 2005, through June 30, 2006,     response to recommendations
                                          requested time and date of                 and selected a random sample of          made during the FY 2005 DCPS
                                          implementation, the action that is to      45 modifications.                        Statement on Auditing Standard
                                          occur, and justification for the action.   For each modification selected, we       70 audit. Therefore, the 13
                                                                                     obtained the change request              sample changes selected during
                                          All changes to information systems at                                               that time could not be provided.
                                          DECC SMC Mechanicsburg are                 documentation and confirmed that it
                                                                                     was approved by key personnel before     All changes that took place after
                                          brought before at least one of two                                                  September 15, 2005, were
                                          CCBs. DISA Headquarters has a              implementation.
                                                                                                                              provided.
                                          executive software CCB, which is           Confirmed that each modification was
                                          responsible for reviewing all major        tested and the test results were
                                          system changes, including new              approved before the modification was
                                          versions, new software, and the            implemented.
                                          removal of software. There is also a
                                          local CCB at DECC SMC                      Confirmed that the modifications were
                                          Mechanicsburg that meets on a weekly       documented by inspecting the SCR;
                                          basis. The local CCB is responsible for    System Test Plan; Detailed System
                                          reviewing all operating system             Specifications; and Unit, System, and
                                          upgrades and fixes. The local CCB is       Acceptance testing results.
                                          also responsible for alerting the
                                          customer to the change and obtaining

                                                                        84
No.   Control Objectives                Control Activities                       Tests Performed                              Results of Testing
                                        customer approval before proceeding.
                                        In addition, the local CCB is
                                        responsible for maintaining the change
                                        control records.
                                        The DISA executive software CCB
                                        consists of representative from DISA
                                        Headquarters, as well as all the
                                        DECCs. The DECC SMC
                                        Mechanicsburg local CCB consists of
                                        all department heads and the
                                        Information Assurance Manager.

61    Good engineering practices with   DECC SMC Mechanicsburg                   DISA                                         No relevant exceptions noted.
      regards to the integrity
      mechanisms of COTS,               Implemented COTS software that           Confirmed through inquiry that a
      Government off-the-shelf, and     scans incoming and outgoing files to     controlled interface was used for
      custom developed solutions are    insure the integrity of those files.     interconnections among DoD
      implemented for incoming and                                               information systems that were
      outgoing files.                                                            connected to DCPS.
                                                                                 Observed the existence of access
                                                                                 control lists, IDS, firewalls, encryption,
                                                                                 and network monitoring.
                                                                                 Confirmed through inquiry that
                                                                                 interface inputs were automatically
                                                                                 validated by the system for missing
                                                                                 information, format, consistency, and
                                                                                 reasonableness.
                                                                                 Inquired of personnel about the system
                                                                                 batch file process for interface inputs
                                                                                 of control totals and line counts.




                                                                     85
No.   Control Objectives                   Control Activities                      Tests Performed                            Results of Testing

      Segregation of Duties

62    Incompatible duties are identified   DECC SMC Mechanicsburg and              DISA and DFAS                              No relevant exceptions noted.
      and policies implemented to          DFAS TSOPE
      segregate those duties.                                                      Inspected the organizational chart and
                                           Developed distinct system support       the job descriptions for IA positions at
                                           functions to ensure there is adequate   DECC SMC Mechanicsburg and
                                           segregation of duties.                  DFAS TSOPE in relation to DCPS to
                                                                                   confirm that there was appropriate
                                                                                   segregation of duties and incompatible
                                                                                   duties did not exist.
                                                                                   Inquired with management and
                                                                                   inspected the organizational chart to
                                                                                   confirm that the following distinct
                                                                                   system support functions were
                                                                                   performed by different individuals.
                                                                                   Those functions include:
                                                                                            •   information security
                                                                                                management,
                                                                                            •   system design,
                                                                                            •   application programming,
                                                                                            •   systems programming,
                                                                                            •   quality assurance and
                                                                                                testing,
                                                                                            •   library management and
                                                                                                change management,
                                                                                            •   computer operations,
                                                                                            •   production control and
                                                                                                scheduling,
                                                                                            •   data control,
                                                                                            •   data security,
                                                                                            •   data administration, and
                                                                                            •   network administration.




                                                                         86
No.   Control Objectives                   Control Activities                         Tests Performed                            Results of Testing

63    System management job                DECC SMC Mechanicsburg and                 DISA and DFAS                              No relevant exceptions noted.
      descriptions have been               DFAS TSOPE
      documented.                                                                     Inspected the job descriptions for the
                                           Developed position descriptions for        applicable types of personnel listed in
                                           distinct system support positions exist.   control objective No. 62.

64    System management employees          DECC SMC Mechanicsburg and                 DISA and DFAS                              No relevant exceptions noted.
      understand their roles and           DFAS TSOPE
      responsibilities.                                                               Selected a random sample of
                                           Personnel receive and sign their           45 employees and confirmed through
                                           position descriptions to confirm that      inquiry that they understood their roles
                                           they are aware of their proposed           and responsibilities.
                                           responsibilities.
                                                                                      Observed documentation to confirm
                                                                                      that employees had signed position
                                                                                      descriptions.

65    Management reviews                   DFAS TSOPE                                 DFAS                                       No relevant exceptions noted.
      effectiveness of control
      techniques.                          Management periodically reviews and        Inspected the DCPS Systems Security
                                           updates security policies and              Policy, Security Requirements, and the
                                           procedures.                                Certification Test and Evaluation Plan
                                                                                      and Procedures to confirm that each
                                                                                      document was periodically updated.

66    Formal procedures guide system       DECC SMC Mechanicsburg and                 DISA and DFAS                              No relevant exceptions noted.
      management personnel in              DFAS TSOPE
      performing their responsibilities.                                              Inspected standard operating
                                           Formal standard operating procedures       procedures used by personnel in
                                           for personnel who support DCPS have        performing their job responsibilities
                                           been developed and implemented.            with respect to DCPS.

67    Access procedures enforce the        DECC SMC Mechanicsburg and                 DISA and DFAS                              No relevant exceptions noted.
      principles of separation of duties   DFAS TSOPE
      and “least privilege.”                                                          Inspected the access control policies
                                           Privilege accounts are only used by        and procedures for compliance with the
                                           DISA and DCPS personnel to create,         principles of separation of duties and
                                           modify, or delete user accounts.           “least privilege.”




                                                                         87
No.   Control Objectives              Control Activities                      Tests Performed                          Results of Testing

68    Active supervision and review   DECC SMC Mechanicsburg                  DISA                                     No relevant exceptions noted.
      are provided for all system
      management personnel.           Support functions are organized based   Inspected the organizational chart to
                                      on job responsibility to ensure         confirm that a management structure
                                      segregation of duties.                  was established.
                                                                              Inspected position descriptions of key
                                                                              DCPS support personnel to confirm
                                                                              supervisory responsibilities were
                                                                              established.




                                                                  88
Section IV: Supplemental Information Provided
              by DFAS and DISA




                     89
                                     Introduction
DFAS and DISA have prepared this section and it is included to provide user
organizations with information that DFAS and DISA believes will be of interest to such
organizations. However, this information is not covered within the scope or control
objectives established for the Statement on Auditing Standard 70 review. Specifically,
this section includes a summary of procedures that DFAS and DISA have implemented to
enable them to recover from a disaster affecting either the TSOPE or DECC SMC
Mechanicsburg.

This information has not been subjected to the procedures applied to the examination of
the description of controls presented in Sections II and III of this report. As a result, the
DoD OIG expresses no opinion regarding the completeness and accuracy of this
information.

TSOPE Specific Business Continuity Plans

The DCPS production support Continuity of Operations Plan (COOP) provides a plan to
be implemented when a disaster or impending threat would render DCPS production
support inoperable (for example, hurricanes or damage to TSOPE facilities due to fire).
This plan is evaluated and updated on an annual basis. If an impending threat or event
occurs, production support control for DCPS is transferred to an alternate-processing site.
Currently, that site is the DISA Processing Element in Huntsville, Alabama. The COOP
includes the names of DCPS staff members who will serve as a pool of resources to
execute the plan, and it includes a list of documentation and supplies that are necessary to
support the mobilized team.

The team is composed of DCPS development staff members across many divisions and
branches. TSOPE designates two members of the management team to be responsible for
COOP execution. One is mobilized with the team and is responsible for team activities
and communication with TSOPE while deployed to the COOP recovery site. The other
serves as the team’s liaison at TSOPE and is responsible for relaying current operational
status, current area weather conditions, and other pertinent information to the mobilized
team. The team is divided into two smaller teams, with each team covering a 12-hour
shift. Team leaders are appointed for the respective shift teams. TSOPE and DCPS
project management staff coordinate and are involved in each step in planning and
executing the COOP. Although this plan works for any type of disaster when production
support becomes inoperable, it has been executed several times in the past few years
during disastrous weather conditions, such as hurricanes.

DECC SMC Mechanicsburg Business Continuity Plans

To accommodate a major disaster at any major DISA processing center, DISA has
established an Enterprise Business Continuity Program. The DISA program uses
multiple internal locations and, for mainframe processing, uses the Assured Computing
Environment infrastructure elements located at DECC SMC Mechanicsburg and Ogden.
DECC SMC Mechanicsburg and Ogden is equipped with computational direct access
storage devices and telecommunication resources necessary to provide a fully functional
host site with the capacity to support a major disaster at any DISA center with mainframe
processing. Recovery efforts for server-based elements are hosted at DECC
Infrastructure Services Center St Louis.


                                              91
The COOP support agreement between DFAS, as the customer, and DISA, as the
provider of processing systems and communications services, describes a process for
restoring host-site processing in the event of a major disaster. The plan also addresses the
timely resolution of problems during other disruptions that adversely affect DCPS
processing. The plan, as it relates to DCPS, details data restoration procedures for the
MZF z/OS operating system, the DCPS IDMS, and related mid-tier servers and
communication devices. Replicated data and backup tapes containing incremental daily
and complete weekly backups are rotated offsite to designated locations for storage on a
predetermined schedule.

The Crisis Management Team at DECC SMC Mechanicsburg is responsible for declaring
that a disaster has occurred and activating the Business Continuity Plan. Once a disaster
has been declared, the Crisis Management Team activates the following response teams:
Communications Team, Recovery Coordination Team, Site Recovery Team, and the
Crisis Support Team. Each team has a specific set of responsibilities defined in the
Business Continuity Plan. The contact information for each individual on each team is
also included in the Business Continuity Plan. The plan is required to be tested on an
annual basis. The Business Continuity Plan was tested in November 2005 at DECC SMC
Ogden. TSOPE personnel participate in the yearly COOP exercise to ensure that the
process works correctly and that documentation is updated appropriately.




                                            92
Acronyms and Abbreviations


ACF2      Access Control Facility 2
CCB       Configuration Control Board
COOP      Continuity of Operations Plan
COTS      Commercial off-the-shelf
DCPS      Defense Civilian Pay System
DECC      Defense Enterprise Computing Center
DFAS      Defense Finance and Accounting Service
DISA      Defense Information Systems Agency
DITSCAP   Department of Defense Information Technology Security
            Certification and Accreditation Process
DMZ       Demilitarized Zones
DoD       Department of Defense
EOP       Executive Office of the President
EPA       Environmental Protection Agency
FSO       Field Security Operations
IA        Information Assurance
IDMS      Integrated Database Management System
IDS       Intrusion Detection System
IT        Information Technology
LPAR      Logical Partition
MAC       Mission Assurance Category
NSA       National Security Agency
OIG       Office of the Inspector General
OLQ       Online Queries
SA        System Administrator
SAAR      Systems Access Authorization Request
SCR       System Change Request
SMC       System Management Center
SMO       System Management Office
SRR       Security Readiness Review
SSAA      System Security Authorization Agreement
STIG      Security Technical Implementation Guide
TSOPE     Technology Services Engineering Organization in Pensacola
TSP       Thrift Savings Plan
VMS       Vulnerability Management System




                                93
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, National Security Agency
Director, Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accountability Office

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                          94
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
   and the Census, Committee on Government Reform




                                        95
Team Members
The Defense Financial Auditing Service, Department of Defense Office of
Inspector General, in conjunction with contract auditors from Acuity Consulting,
Inc., produced this report. Personnel from the Technical Assessment Division and
Quantitative Methods Division, DoD OIG, also contributed to the report.

Paul J. Granetto
Patricia A. Marsh
Michael Perkins
Kenneth H. Stavenjord
Frank C. Sonsini
Sean J. Keaney
Anh H. Tran
Charles S. Dekle
Ernest G. Fine
Travis R. Schenck
Mary A. Hoover
Nicholas Drotar, Jr
Debra J. DeJonge
Steve L. Kohne
Alberto J. Calimano-Colon
